      32012                                      Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices

                                              ESTIMATED ANNUAL REPORTING AND RECORD KEEPING BURDEN—Continued
                                                                                                                      Responses
                                                                                                    Number of                                     Total         Hours per               Total burden
                                   Section and activity                                                                   per
                                                                                                   respondents                                 responses        response                   hours
                                                                                                                      respondent

      121.6(c) (Reporting) Submitting criteria for organ accept-
        ance ..................................................................................               900                        1             900                      0.5              450
      121.6(c) (Disclosure) Sending criteria to OPOs ..................                                       900                        1             900                      0.5              450
      121.7(b)(4) Reasons for Refusal .........................................                               900                      38           34,200                      0.5           17,100
      121.7(e) Transplant to prevent organ wastage ...................                                        278                      1.5             417                      0.5              209
      121.9(b) Designated Transplant Program Requirements ....                                                 10                        1              10                      5.0               50

            Total ..............................................................................              944   ........................        36,457   ........................         19,459



        Written comments and                                                        Agenda: Topics that will be discussed                      current enforcement priorities, and
      recommendations concerning the                                             include the following: Low Birth Weight,                      lessons learned in the area of corporate
      proposed information collection should                                     Preterm Birth, U.S. and International Infant                  compliance. When published, the final
                                                                                 Mortality Data, the Healthy Start Program
      be sent within 30 days of this notice to:                                                                                                supplemental CPG will provide
                                                                                 and Evaluation. Agenda items are subject to
      Desk Officer, Health Resources and                                         change as priorities are further determined.                  voluntary guidelines to assist hospitals
      Services Administration, Human                                                For Further Information Contact: Anyone                    and hospital systems in identifying
      Resources and Housing Branch, Office                                       requiring information regarding the                           significant risk areas and in evaluating
      of Management and Budget, New                                              Committee should contact Peter C. van Dyck,                   and, as necessary, refining ongoing
      Executive Office Building, Room 10235,                                     M.D., M.P.H., Executive Secretary, ACIM,                      compliance efforts.
      Washington, DC 20503.                                                      Health Resources and Services                                 DATES: To ensure consideration,
                                                                                 Administration (HRSA), Room 18–05,
        Dated: June 1, 2004.                                                     Parklawn Building, 5600 Fishers Lane,
                                                                                                                                               comments must be delivered to the
      Tina M. Cheatham,                                                          Rockville, MD 20857, telephone: (301) 443–                    address provided below by no later than
      Director, Division of Policy Review and                                    2170.                                                         5 p.m. on July 23, 2004.
      Coordination.                                                                 Individuals who are interested in attending                ADDRESSES: Please mail or deliver
                                                                                 any portion of the meeting or who have                        written comments to the following
      [FR Doc. 04–12890 Filed 6–7–04; 8:45 am]
                                                                                 questions regarding the meeting should                        address: Office of Inspector General,
      BILLING CODE 4165–15–P                                                     contact Ann M. Koontz, C.N.M., Dr.P.H.,                       Department of Health and Human
                                                                                 HRSA, Maternal and Child Health Bureau,
                                                                                 telephone: (301) 443–6327.
                                                                                                                                               Services, Attention: OIG–9–CPG, Room
      DEPARTMENT OF HEALTH AND                                                                                                                 5246, Cohen Building, 330
      HUMAN SERVICES                                                               Dated: June 1, 2004.                                        Independence Avenue, SW.,
                                                                                 Tina M. Cheatham,                                             Washington, DC 20201.
      Health Resources and Services                                              Director, Division of Policy Review and                         We do not accept comments by
      Administration                                                             Coordination.                                                 facsimile (FAX) transmission. In
                                                                                 [FR Doc. 04–12891 Filed 6–7–04; 8:45 am]                      commenting, please refer to file code
      Advisory Committee on Infant                                                                                                             OIG–9–CPG. Comments received timely
                                                                                 BILLING CODE 4165–15–P
      Mortality; Notice of Meeting                                                                                                             will be available for public inspection as
                                                                                                                                               they are received, generally beginning
        In accordance with section 10(a)(2) of                                   DEPARTMENT OF HEALTH AND                                      approximately 2 weeks after publication
      the Federal Advisory Committee Act                                         HUMAN SERVICES                                                of a document, in Room 5541 of the
      (Pub. L. 92–463), notice is hereby given                                                                                                 Office of Inspector General at 330
      of the following meeting:                                                  Office of Inspector General                                   Independence Avenue, SW.,
         Name: Advisory Committee on Infant                                                                                                    Washington, DC 20201 on Monday
      Mortality (ACIM).                                                          OIG Draft Supplemental Compliance                             through Friday of each week from 8 a.m.
         Dates and Times: July 13, 2004, 9 a.m.–5                                Program Guidance for Hospitals                                to 4:30 p.m.
      p.m. July 14, 2004, 8:30 a.m.–3 p.m.                                                                                                     FOR FURTHER INFORMATION CONTACT:
                                                                                 AGENCY: Office of Inspector General
         Place: The Hotel Washington, 15th &                                                                                                   Darlene M. Hampton or Paul Johnson,
      Pennsylvania Avenue, NW., Washington, DC                                   (OIG), HHS.
                                                                                 ACTION: Notice and comment period.                            Office of Counsel to the Inspector
      20004, (202) 638–5900.
         Status: The meeting is open to the public.
                                                                                                                                               General, (202) 619–0335.
         Purpose: The Committee provides advice                                  SUMMARY:   This Federal Register notice                       SUPPLEMENTARY INFORMATION:
      and recommendations to the Secretary of                                    seeks the comments of interested parties
                                                                                 on a draft supplemental compliance                            Background
      Health and Human Services on the following:
      Department programs that are directed at                                   program guidance (CPG) for hospitals                             Several years ago, the OIG embarked
      reducing infant mortality and improving the                                developed by the Office of Inspector                          on a major initiative to engage the
      health status of pregnant women and infants;                               General (OIG). When the final version of                      private health care community in
      factors affecting the continuum of care with                               this document is published, it will                           preventing the submission of erroneous
      respect to maternal and child health care,                                 supplement the OIG’s prior compliance                         claims and in combating fraud and
      including outcomes following childbirth;                                   program guidance for hospitals issued                         abuse in the Federal health care
      strategies to coordinate the variety of Federal,
                                                                                 in 1998. This draft contains new                              programs through voluntary compliance
      State, local and private programs and efforts
      that are designed to deal with the health and                              compliance recommendations and an                             efforts. In the last several years, the OIG
      social problems impacting on infant                                        expanded discussion of risk areas. The                        has developed a series of compliance
      mortality; and the implementation of the                                   draft takes into account recent changes                       program guidances (CPGs) directed at
      Healthy Start initiative and Healthy People                                to hospital payment systems and                               the following segments of the health
      2010 infant mortality objectives.                                          regulations, evolving industry practices,                     care industry: Hospitals; clinical


VerDate jul<14>2003        14:21 Jun 07, 2004        Jkt 203001       PO 00000       Frm 00071     Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM       08JNN1
                                      Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices                                                     32013

      laboratories; home health agencies;                     health care industry, the Office of                    program memoranda); other OIG
      third-party billing companies; the                      Inspector General (OIG) of the                         guidance (such as OIG advisory
      durable medical equipment, prosthetics,                 Department of Health and Human                         opinions, Special Fraud Alerts,
      orthotics, and supply industry;                         Services (the Department) publishes this               bulletins, and other guidance);
      hospices; Medicare+Choice                               Supplemental Compliance Program                        experience gained from investigations
      organizations; nursing facilities;                      Guidance for Hospitals.3 This document                 conducted by the OIG’s Office of
      physicians; ambulance suppliers; and                    supplements, rather than replaces, the                 Investigations, the Department of
      pharmaceutical manufacturers. CPGs are                  OIG’s 1998 CPG for the hospital                        Justice, and the State Medicaid Fraud
      intended to encourage the development                   industry, 63 FR 8987 (February 23,                     Units; and relevant reports issued by the
      and use of internal controls to monitor                 1998), which addressed the                             OIG’s Office of Audit Services and
      adherence to applicable statutes,                       fundamentals of establishing an                        Office of Evaluation and Inspections.7
      regulations, and program requirements.                  effective compliance program.4 Neither                 We also consulted generally with CMS,
      The suggestions made in these CPGs are                  this supplemental CPG, nor the original                the Department’s Office for Civil Rights,
      not mandatory, and the CPGs should not                  1998 CPG, is a model compliance                        and the Department of Justice.
      be viewed as exhaustive discussions of                  program. Rather, collectively the two
                                                                                                                     A. Benefits of a Compliance Program
      beneficial compliance practices or                      documents offer a set of guidelines that
      relevant risk areas. Copies of these CPGs               hospitals should consider when                           A successful compliance program
      can be found on the OIG webpage at                      developing and implementing a new                      addresses the public and private sectors’
      http://oig.hhs.gov.                                     compliance program or evaluating an                    mutual goals of reducing fraud and
                                                              existing one.                                          abuse; enhancing health care providers’
      Supplementing the Compliance                               We are mindful that many hospitals                  operations; improving the quality of
      Program Guidance for Hospitals                          have already devoted substantial time                  health care services; and reducing the
         The OIG originally published a CPG                   and resources to compliance efforts. We                overall cost of health care services.
      for the hospital industry on February 23,               believe that those efforts demonstrate                 Attaining these goals benefits the
      1998.1 Since that time, there have been                 the industry’s good faith commitment to                hospital industry, the government, and
      significant changes in the way hospitals                ensuring and promoting integrity. For                  patients alike. Compliance programs
      deliver, and are reimbursed for, health                 those hospitals with existing                          help hospitals fulfill their legal duty to
      care services. In response to these                     compliance programs, this document                     refrain from submitting false or
      developments, on June 18, 2002, the                     may serve as a benchmark or                            inaccurate claims or cost information to
      OIG published a notice in the Federal                   comparison against which to measure                    the Federal health care programs 8 or
      Register, titled a ‘‘Solicitation of                    ongoing efforts and as a roadmap for                   engaging in other illegal practices. A
      Information and Recommendations for                     updating or refining their compliance                  hospital may gain important additional
      Revising the Compliance Program                         plans.                                                 benefits by voluntarily implementing a
      Guidance for the Hospital Industry.’’ 2                    In crafting this CPG, we considered,                compliance program, including:
      The OIG received 11 comments from                       among other things, the public                           • Demonstrating the hospital’s
      various interested parties. In light of the             comments received in response to the                   commitment to honest and responsible
      public comments and our consideration                   solicitation notice published in the                   corporate conduct;
      of the issues, we have decided to                       Federal Register,5 as well as relevant                   • increasing the likelihood of
      supplement, rather than revise, the 1998                OIG and Centers for Medicare &                         preventing, identifying, and correcting
      guidance.                                               Medicaid Services (CMS) statutory and                  unlawful and unethical behavior at an
         Many public commenters sought                        regulatory authorities (including the                  early stage;
      guidance on the application of specific                 Federal anti-kickback statute, together                  • encouraging employees to report
      Medicare rules and regulations related                  with the safe harbor regulations and                   potential problems to allow for
      to payment and coverage, an area                        preambles,6 and CMS transmittals and                   appropriate internal inquiry and
      beyond the scope of this OIG guidance.                                                                         corrective action; and
      Hospitals with questions about the                        3 For purposes of convenience in this guidance,        • through early detection and
      interpretation or application of payment                we use the term ‘‘hospitals’’ to refer to individual   reporting, minimizing any financial loss
      and coverage rules or regulations should                hospitals, multi-hospital systems, health systems
                                                              that own or operate hospitals, academic medical
                                                                                                                     to government and taxpayers, as well as
      contact their Fiscal Intermediaries (FIs)               centers, and any other organization that owns or       any corresponding financial loss to the
      or the national CMS office, as                          operates one or more hospitals. Where applicable,      hospital.
      appropriate.                                            the term ‘‘hospitals’’ is also intended to include,
                                                                                                                       The OIG recognizes that
         To ensure full and meaningful input                  without limitation, hospital owners, officers,
                                                              managers, staff, agents, and sub-providers. This       implementation of a compliance
      from the industry, we are publishing
                                                              guidance primarily focuses on hospitals reimbursed
      this supplemental CPG in draft form                     under the inpatient prospective payment system.        preambles are available on our webpage at http://
      with a 45-day comment period. We will                   While other hospitals should find this CPG useful,     oig.hhs.gov/fraud/safeharborregulations.html#1.
      then review the comments and publish                    we recognize that they may be subject to different       7 OIG materials are available on our webpage at

      a final supplemental CPG.                               laws, rules, and regulations and, accordingly, may     http://oig.hhs.gov.
                                                              have different or additional risk areas and may need     8 The term ‘‘Federal health care programs,’’ as
      Draft Supplemental Compliance                           to adopt different compliance strategies. We           defined in 42 U.S.C. 1320a–7b(f), includes any plan
      Program Guidance for Hospitals                          encourage all hospitals to establish and maintain      or program that provides health benefits, whether
                                                              ongoing compliance programs.                           directly, through insurance, or otherwise, which is
      I. Introduction                                           4 The 1998 OIG Compliance Guidance for
                                                                                                                     funded directly, in whole or in part, by the United
                                                              Hospitals is available on our webpage at http://       States Government (other than the Federal
         Continuing its efforts to promote                    oig.hhs.gov/authorities/docs/cpghosp.pdf.              Employees Health Benefit Plan described at 5
      voluntary compliance programs for the                     5 See 67 FR 41433 (June 18, 2002), ‘‘Solicitation
                                                                                                                     U.S.C. 8901–8914) or any State health plan (e.g.,
                                                              of Information and Recommendations for Revising        Medicaid or a program receiving funds from block
        1 See 63 FR 8987 (February 23, 1998), available       a Compliance Program Guidance for the Hospital         grants for social services or child health services).
      on our webpage at http://oig.hhs.gov/authorities/       Industry,’’ available on our webpage at http://        In this document, the term ‘‘Federal health care
      docs/cpghosp.pdf.                                       oig.hhs.gov/authorities/docs/cpghospitalsolicitati     program requirements’’ refers to the statutes,
        2 See 67 FR 41433 (June 18, 2002), available on       onnotice.pdf.                                          regulations, and other rules governing Medicare,
      our webpage at http://oig.hhs.gov/authorities/docs/       6 See 42 U.S.C. 1320a–7b(b). See also 42 CFR         Medicaid, and all other Federal health care
      cpghospitalsolicitationnotice.pdf.                      1001.952. The safe harbor regulations and              programs.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00072   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
      32014                           Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices

      program may not entirely eliminate                      regulations. This section focuses on                   or erroneous claims.9 Moreover, the
      improper or unethical conduct from the                  areas that are currently of concern to the             knowing submission of a false,
      operations of health care providers.                    enforcement community and is not                       fraudulent, or misleading statement or
      However, an effective compliance                        intended to address all potential risk                 claim is actionable. A hospital may be
      program demonstrates a hospital’s good                  areas for hospitals. Importantly, the                  liable under the False Claims Act10 or
      faith effort to comply with applicable                  identification of a particular practice or             other statutes imposing sanctions for the
      statutes, regulations, and other Federal                activity in this section is not intended               submission of false claims or
      health care program requirements, and                   to imply that the practice or activity is              statements, including liability for civil
      may significantly reduce the risk of                    necessarily illegal in all circumstances               monetary penalties or exclusion.11
      unlawful conduct and corresponding                      or that it may not have a valid or lawful              Underlying assumptions used in
      sanctions.                                              purpose underlying it.                                 connection with claims submission
      B. Application of Compliance Program                       This section addresses the following                should be reasoned, consistent, and
      Guidance                                                areas of significant concern for                       appropriately documented, and
                                                              hospitals: (A) Submission of accurate                  hospitals should retain all relevant
         Given the diversity of the hospital                                                                         records reflecting their efforts to comply
      industry, there is no single ‘‘best’’                   claims and information; (B) the referral
                                                                                                                     with Federal health care program
      hospital compliance program. The OIG                    statutes; (C) payments to reduce or limit
                                                                                                                     requirements.
      recognizes the complexities of the                      services; (D) the Emergency Medical
                                                                                                                        Common and longstanding risks
      hospital industry and the differences                   Treatment and Labor Act (EMTALA); (E)
                                                                                                                     associated with claims preparation and
      among hospitals and hospital systems.                   substandard care; (F) relationships with
                                                                                                                     submission include inaccurate or
      Some hospital entities are small and                    Federal health care program
                                                                                                                     incorrect coding, upcoding, unbundling
      may have limited resources to devote to                 beneficiaries; (G) HIPAA Privacy and
                                                                                                                     of services, billing for medically
      compliance measures; others are                         Security Rules; and (H) billing Medicare
                                                                                                                     unnecessary services or other services
      affiliated with well-established, large,                or Medicaid substantially in excess of
                                                                                                                     not covered by the relevant health care
      multi-facility organizations with a                     usual charges. In addition, a final
                                                                                                                     program, billing for services not
      widely dispersed work force and                         section (I) addresses several areas of
                                                                                                                     provided, duplicate billing, insufficient
      significant resources to devote to                      general interest that, while not                       documentation, and false or fraudulent
      compliance.                                             necessarily matters of significant risk,               cost reports. While hospitals should
         Accordingly, this supplemental CPG                   have been of continuing interest to the                continue to be vigilant with respect to
      is not intended to be one-size-fits-all                 hospital community. This guidance                      these important risk areas, we believe
      guidance. Rather, the OIG strongly                      does not create any new law or legal                   these risk areas are relatively well-
      encourages hospitals to identify and                    obligations, and the discussions in this               understood in the industry and,
      focus their compliance efforts on those                 guidance are not intended to present                   therefore, they are not generally
      areas of potential concern or risk that                 detailed or comprehensive summaries of                 addressed in this section.12 Rather, the
      are most relevant to their individual                   lawful and unlawful activity. Nor is this              following discussion highlights evolving
      organizations. Compliance measures                      guidance intended as a substitute for                  risks or risks that appear to the OIG to
      adopted by a hospital to address                        consultation with CMS or a hospital’s                  be under-appreciated by the industry.
      identified risk areas should be tailored                Fiscal Intermediary (FI) with respect to               The risks are grouped under the
      to fit the unique environment of the                    the application and interpretation of                  following topics: Outpatient procedure
      organization (including its structure,                  Medicare payment and coverage                          coding; admissions and discharges;
      operations, resources, and prior                        provisions, which are subject to change.               supplemental payment considerations;
      enforcement experience). In short, the                  Rather, this guidance should be used as                and use of information technology. By
      OIG recommends that each hospital                       a starting point for a hospital’s legal
      adapt the objectives and principles                     review of its particular practices and for               9 See   42 U.S.C. 1320a-7b(a)(3).
      underlying this guidance to its own                     development or refinement of policies                    10 The   False Claims Act (31 U.S.C. 3729–33),
      particular circumstances.                               and procedures to reduce or eliminate                  among other things, prohibits knowingly presenting
         In section II below, titled ‘‘Fraud and              potential risk.                                        or causing to be presented to the Federal
      Abuse Risk Areas,’’ we present several                                                                         government a false or fraudulent claim for payment
                                                              A. Submission of Accurate Claims and                   or approval, knowingly making or using or causing
      fraud and abuse risk areas that are                                                                            to be made or used a false record or statement to
      particularly relevant to the hospital                   Information                                            have a false or fraudulent claim paid or approved
      industry. Each hospital should carefully                                                                       by the government, and knowingly making or using
      examine these risk areas and identify                      Perhaps the single biggest risk area for            or causing to be made or used, a false record or
      those that potentially impact the                       hospitals is the preparation and                       statement to conceal, avoid, or decrease an
                                                              submission of claims or other requests                 obligation to pay or transmit money or property to
      hospital. Next, in section III, ‘‘Hospital                                                                     the government. The Act defines ‘‘knowing’’ and
      Compliance Program Effectiveness,’’ we                  for payment from the Federal health                    ‘‘knowingly’’ to mean that ‘‘a person, with respect
      offer recommendations for assessing and                 care programs. It is axiomatic that all                to the information (1) has actual knowledge of the
      improving an existing compliance                        claims and requests for reimbursement                  information; (2) acts in deliberate ignorance of the
                                                              from the Federal health care programs—                 truth or falsity of the information; or (3) acts in
      program to better address identified risk                                                                      reckless disregard of the truth or falsity of the
      areas. Finally, in section IV, ‘‘Self-                  and all documentation supporting such                  information, and no proof of specific intent to
      Reporting,’’ we set forth the actions                   claims or requests—must be complete                    defraud is required.’’ 31 U.S.C. 3729(b).
      hospitals should take if they discover                  and accurate and must reflect                             11 In some circumstances, inaccurate or


      credible evidence of misconduct.                        reasonable and necessary services                      incomplete reporting may lead to liability under the
                                                              ordered by an appropriately licensed                   Federal anti-kickback statute. In addition, hospitals
                                                                                                                     should be mindful that many States have fraud and
      II. Fraud and Abuse Risk Areas                          medical professional who is a                          abuse statutes—including false claims, anti-
         This section is intended to help                     participating provider in the health care              kickback, and other statutes—that are not addressed
      hospitals identify areas of their                       program from which the individual or                   in this guidance.
                                                                                                                        12 To review the risk areas discussed in the
      operations that present a potential risk                entity is seeking reimbursement.
                                                                                                                     original hospital CPG, see 63 FR 8987, 8990
      of liability under several key Federal                  Hospitals must disclose and return any                 (February 23, 1998), available on our webpage at
      fraud and abuse statutes and                            overpayments that result from mistaken                 http://oig.hhs.gov/authorities/docs/cpghosp.pdf.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00073   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
                                      Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices                                                      32015

      necessity, this discussion is illustrative,             may also result in the submission of                      Description Masters (CDMs) list all of
      not exhaustive, of risks associated with                improper claims.                                          the hospital’s charges for items and
      the submission of claims or other                          In addition to the coding risk areas                   services and include the underlying
      information. In all cases, hospitals                    noted above and in the 1998 hospital                      procedure codes necessary to bill for
      should consult the applicable laws,                     CPG, other specific risk areas associated                 those items and services. Outdated
      rules, and regulations.                                 with incorrect outpatient procedure                       CDMs create significant compliance risk
                                                              coding include the following:                             for hospitals. Because the Healthcare
      1. Outpatient Procedure Coding                             • Billing on an outpatient basis for
                                                                                                                        Common Procedure Coding System
         The implementation of Medicare’s                     ‘‘inpatient-only’’ procedures—CMS has
      Hospital Outpatient Prospective                         identified several procedures for which                   (HCPCS) codes and APCs are updated
      Payment System (OPPS)13 increased the                   reimbursement is typically allowed only                   regularly, hospitals should pay
      importance of accurate procedure                        if the service is performed in an                         particular attention to the task of
      coding for hospital outpatient services.                inpatient setting.15                                      updating the CDM to ensure the
      Previously, hospital coding concerns                       • Submitting claims for medically                      assignment of correct codes to
      mainly consisted of ensuring accurate                   unnecessary services by failing to follow                 outpatient claims. This should include
      ICD–9-CM diagnosis and procedure                        the FI’s local medical review policies—                   timely updates, proper use of modifiers,
      coding for reimbursement under the                      Each FI publishes local medical review                    and correct associations between
      inpatient prospective payment system                    policies (LMRPs) that identify certain                    procedure codes and revenue codes.18
      (PPS). Hospitals reported procedure                     procedures that may only be rendered                         • Circumventing the multiple
      codes for outpatient services, but were                 when specific conditions are present. In                  procedure discounting rules—A surgical
      reimbursed for outpatient services based                addition to relying on a physician’s
                                                                                                                        procedure performed in connection
      on their charges for services. With                     sound clinical judgment with respect to
                                                                                                                        with another surgical procedure may be
      OPPS, procedure codes effectively                       the appropriateness of a proposed
                                                              course of treatment, hospitals should                     discounted. However, certain surgical
      became the basis for Medicare
      reimbursement. Under OPPS, each                         regularly review and become familiar                      procedures are designated as non-
      reported procedure code is assigned to                  with their individual FI’s LMRPs.                         discounted, even when performed with
      a corresponding Ambulatory Payment                      LMRPs should be incorporated into a                       another surgical procedure. Hospitals
      Classification (APC) code. Hospitals are                hospital’s regular coding and billing                     should ensure that the procedure codes
      then reimbursed a predetermined                         operations.16                                             selected represent the actual services
      amount for each APC, irrespective of the                   • Submitting duplicate claims or                       provided, irrespective of the
      specific level of resources used to                     otherwise not following the National                      discounting status. They should also
      furnish the service. In implementing                    Correct Coding Initiative guidelines—                     review the annual OPPS rule update to
      OPPS, CMS developed new rules                           CMS developed the National Correct                        understand more fully CMS’s multiple
      governing the use of procedure code                     Coding Initiative (NCCI) to promote                       procedure discounting rule.19
      modifiers for outpatient coding.14                      correct coding methodologies. NCCI
                                                                                                                           • Failing to follow CMS instructions
      Because incorrect procedure coding may                  identifies certain codes that should not
                                                                                                                        regarding the selection of proper
      lead to overpayments and subject a                      be used together because they are either
                                                              mutually exclusive or one is a                            evaluation and management codes—
      hospital to liability for the submission
                                                              component of another. If a hospital uses                  Hospitals should take steps to ensure
      of false claims, hospitals need to pay
      close attention to coder training and                   code pairs that are listed in the NCCI                    that the evaluation and management (E/
      qualifications.                                         and those codes are not detected by the                   M) codes that are used to describe
         Hospitals should also review their                   editing routines in the hospital’s billing                medical services provided to patients
      outpatient documentation practices to                   system, the hospital may submit                           follow published CMS guidelines.20
      ensure that claims are based on                         duplicate or unbundled claims.                               • Improperly billing for observation
      complete medical records and that the                   Intentional manipulation of code                          services—In certain circumstances,
      medical record supports the level of                    assignments to maximize payments and                      Medicare provides a separate APC
      service claimed. Under OPPS, hospitals                  avoid NCCI edits constitutes fraud.                       payment for observation services for
      must generally include on a single claim                Unintentional misapplication of the                       patients with diagnoses of chest pain,
      all services provided to the same patient               NCCI coding and billing guidelines may                    asthma, or congestive heart failure.
      on the same day. Coding from                            also give rise to overpayments or civil                   Claims for these observation services
      incomplete medical records may create                   liability for hospitals that have                         must correctly reflect the diagnosis and
      problems in complying with this claim                   developed a pattern of inappropriate                      meet certain other requirements. Billing
      submission requirement. Moreover,                       billing. To minimize risk, hospitals
      submitting claims for services that are                                                                           for observation services in situations
                                                              should ensure that their coding software
      not supported by the medical record                                                                               that do not satisfy the requirements is
                                                              includes up-to-date NCCI edit files.17
                                                                 • Submitting incorrect claims for                      inappropriate and may result in hospital
         13 Congress enacted the OPPS in section 4523 of
                                                              ancillary services because of outdated                    liability. Hospitals should develop, and
      the Balanced Budget Act of 1997. OPPS became            Charge Description Masters—Charge                         become familiar with, CMS’s detailed
      effective on August 1, 2001. CMS promulgated
      regulations implementing the OPPS at 42 CFR Part
                                                                 15 The list of ‘‘inpatient-only’’ procedures appears     18 For information relating to HCPCS code
      419. For more information regarding the OPPS, see
      http://www.cms.gov/providers/hopps/.                    in the annual update to the OPPS rule. For the 2004       updates, see http://www.cms.gov/medicare/hcpcs/.
         14 The list of current modifiers is listed in the    final rule, the ‘‘inpatient-only’’ list is found in       For information relating to annual APC updates, see
      Current Procedural Terminology (CPT) coding             Addendum E. See http://www.cms.gov/regulations/           http://www.cms.gov/providers/hopps/.
      manual. However, hospitals should pay particular        hopps/2004f.                                                19 See http://www.cms.gov/medlearn/refopps.asp.
                                                                 16 A hospital may contact its FI to request a copy
      attention to CMS transmittals and program                                                                           20 Section 1848(c)(5) of the Social Security Act
      memoranda that may introduce new or altered             of the pertinent LMRPs, or visit CMS’s webpage at
      application of modifiers for claims submission and      http://www.cms.gov/mcd to search existing local           (42 U.S.C. 1395w-4(c)(5)) mandated the
      reimbursement purposes. See chapter 4, section          and national policies.                                    development of a uniform coding system to
      20.6 of the Medicare Claims Processing Manual at           17 More information regarding NCCI can be              describe physician services. E/M documentation
      http://www.cms.gov/manuals/104_claims/                  obtained from CMS’s webpage at http://                    guidelines can be accessed at http://www.cms.gov/
      clm104c04.pdf.                                          www.cms.gov/medlearn/ncci.asp.                            medlearn/emdoc.asp.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00074   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM     08JNN1
      32016                           Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices

      policies for the submission of claims for               receive a per diem transfer payment,                       • Abuse of DRG outlier payments—
      observation services.21                                 rather than the full DRG payment, if the                Recent investigations revealed
                                                              patient is discharged to certain post-                  substantial abuse of outlier payments by
      2. Admissions and Discharges
                                                              acute care settings.25 There are currently              hospitals with Medicare patients.
         Often, the status of patients at the                 29 DRGs that are subject to CMS’s post-                 Hospital management, compliance staff,
      time of admission or discharge                          acute care transfer policy; however,                    and counsel should familiarize
      significantly influences the amount and                 CMS may revise the list of designated                   themselves with CMS’s new outlier
      method of reimbursement hospitals                       DRGs periodically.26 To avoid                           rules and requirements intended to curb
      receive. Therefore, hospitals have a duty               improperly billing for discharges,                      abuses.29
      to ensure that admission and discharge                  hospitals should pay particular
      policies are updated and reflect current                                                                           • Improper claims for incorrectly
                                                              attention to CMS’s post-acute care
      CMS rules. Risk areas with respect to                                                                           designated ‘‘provider-based’’ entities—
                                                              transfer policy and keep an accurate list
      the admission and discharge processes                                                                           Certain hospital-affiliated entities and
                                                              of all designated DRGs subject to that
      include the following:                                                                                          clinics can be designated as ‘‘provider-
                                                              policy.
         • Failure to follow the ‘‘same-day                                                                           based,’’ which allows for a higher level
                                                                 • Improper churning of patients by                   of reimbursement for certain services.30
      rule’’—OPPS rules require hospitals to                  long-term care hospitals co-located in
      include on the same claim all OPPS                                                                              Hospitals should take steps to ensure
                                                              acute care hospitals—Long term care
      services provided at the same hospital,                                                                         that facilities or organizations are only
                                                              hospitals that are co-located within
      to the same patient, on the same day,                                                                           designated as provider-based if they
                                                              acute care hospitals may qualify for
      unless certain conditions are met.                                                                              satisfy the criteria set forth in the
                                                              PPS-exempt status if certain regulatory
      Hospitals should review internal billing                                                                        regulations.
                                                              requirements are satisfied.27 Hospitals
      systems and procedures to ensure that                   should not engage in the practice of                       • Improper claims for clinical trials—
      they are not submitting multiple claims                 churning, or inappropriately                            Since September 2000, Medicare has
      for OPPS services delivered to the same                 transferring, patients between the host                 covered items and services furnished
      patient on the same day.22                              hospital and the hospital-within-a-                     during certain clinical trials, as long as
         • Abuse of partial hospitalization                                                                           those items and services would
                                                              hospital.
      payments—Under OPPS, Medicare
                                                                                                                      typically be covered for Medicare
      provides a per diem payment for                         3. Supplemental Payment                                 beneficiaries, but for the fact that they
      specific hospital services rendered to                  Considerations
                                                                                                                      are provided in an experimental or
      behavioral and mental health patients
      on a partial hospitalization basis.                        Under the Medicare program, in                       clinical trial setting. Hospitals that
      Examples of improper billing under the                  certain limited situations, hospitals may               participate in clinical trials should
      partial hospitalization program include,                claim payments in addition to, or in                    review the requirements for submitting
      without limitation: reducing the range                  some cases in lieu of, the                              claims for patients participating in
      of services offered; withholding services               normalreimbursement available to                        clinical trials.31
      that are medically appropriate; billing                 hospitals under the regular payment                        • Improper claims for organ
      for services not covered; and billing for               systems. Eligibility for these payments                 acquisition costs–Hospitals that are
      services without a certificate of medical               depends on compliance with specific                     approved transplantation centers may
      necessity.23                                            criteria. Hospitals that claim                          receive reimbursement on a reasonable
         • Same-day discharges and                            supplemental payments improperly are                    cost basis to cover the costs of
      readmissions—Same-day discharges                        liable for fines and penalties under                    acquisition of certain organs.32 Organ
      and readmissions may indicate                           Federal law. Examples of specific risks                 acquisition costs are only reimbursable
      premature discharges, medically                         that hospitals should address include                   if a hospital satisfies several
      unnecessary readmissions, or incorrect                  the following:                                          requirements, such as having adequate
      discharge coding. Hospitals should have                    • Improper reporting of the costs of                 cost information, supporting
      procedures in place to review                           ‘‘pass-through’’ items—‘‘Pass-through’’                 documentation, and supporting medical
      discharges and admissions carefully to                  items are certain items of new                          records.33 Hospitals must also ensure
      ensure that they reflect prudent clinical               technology and drugs for which                          that expenses not related to organ
      decision-making and are properly                        Medicare will reimburse the hospital                    acquisition, such as transplant and post-
      coded.24                                                based on costs during a limited                         transplant activities and costs from
         • Violation of Medicare’s post-acute                 transitional period.28
      care transfer policy—The post-acute                                                                               29 See  42 CFR 412.84; 68 FR 34493 (June 9, 2003).
      care transfer policy provides that, for                      25 See
                                                                        42 CFR 412.4(c). See, e.g., OIG Audit           30 The  criteria for determining whether a facility
      certain designated DRGs, a hospital will                Report A–04–00–01220 ‘‘Implementation of                or organization is provider-based can be found at 42
                                                              Medicare’s Postacute Care Transfer Policy,’’ October    CFR 413.65. In April 2003, CMS published
         21 See CMS Program Transmittal A–02–026,             2001, available on our webpage at http://               Transmittal A–03–030, outlining changes to the
      available on CMS’s webpage at http://www.cms.gov/       oig.hhs.gov/oas/reports/region4/40001220.pdf.           criteria for provider-based designation. See http://
      manuals/pm_trans/A02026.pdf.                               26 The initial 10 designated DRGs were selected      www.cms.gov/manuals/pm_trans/A03030.pdf.
         22 See chapter 1, section 50.2 of the Medicare       by the Secretary, pursuant to section 1886(d)(5)(J)        31 To view Medicare’s National Coverage Decision

      Claims Processing Manual, available on CMS’s            of the Social Security Act (42 U.S.C.                   regarding clinical trials, see http://www.cms.gov/
      webpage at http://www.cms.gov/manuals/                  1395ww(d)(5)(J)). With the 2004 fiscal year PPS         coverage/8d2.asp. Specific requirements for
      104_claims/clm104c01.pdf.                               rule, CMS revised the list of DRGs paid under           submitting claims for reimbursement for clinical
         23 See chapter 4, section 260 of the Medicare        CMS’s post-acute care transfer policy, bringing the     trials can be accessed on CMS’s webpage at
      Claims Processing Manual, available on CMS’s            total number of designated DRGs to 29. See 68 FR        http://www.cms.gov/coverage/8d4.asp.
      webpage at http://www.cms.gov/manuals/                  45346, 45406 (August 1, 2003). See also chapter 3,         32 See 42 CFR 412.2(e)(4), 42 CFR 412.113(d), and

      104_claims/clm104c04.pdf.                               section 40.2.4 of the Medicare Claims Processing        42 CFR 413.203. See generally 42 CFR Part 413
         24 See, e.g., OIG Audit Report A–03–01–00011,        Manual, available on CMS’s webpage at http://           (setting forth the principles of reasonable cost
      ‘‘Review of Medicare Same-Day, Same-Provider            www.cms.gov/manuals/104_claims/clm104c03.pdf.           reimbursement).
                                                                 27 See 42 CFR 412.22(e).
      Acute Care Readmissions in Pennsylvania During                                                                     33 See Medicare’s Provider Reimbursement

      Calendar Year 1998,’’ August 2002, available on our        28 For more information regarding CMS’s APC          Manual (PRM), Part I, section 2304 and Part II,
      webpage at http://oig.hhs.gov/oas/reports/region3/      ‘‘pass-through’’ payments, see http://www.cms.gov/      section 3610, available on CMS’s webpage at
      30100011.pdf.                                           providers/hopps/apc.asp.                                http://www.cms.gov/manuals/cmstoc.asp.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000    Frm 00075   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
                                      Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices                                                     32017

      other cost centers, are not included in                 on information technology. For                         Act. Because all inpatient and
      the hospital’s organ acquisition costs.34               example, HIPAA Privacy and Security                    outpatient hospital services (including
        • Improper claims for cardiac                         Rules (discussed below in section II.G),               services furnished directly by a hospital
      rehabilitation services—Medicare covers                 electronic claims submission,37                        or by others ‘‘under arrangements’’ with
      reasonable and necessary cardiac                        electronic prescribing, networked                      a hospital) are DHS under the statute,39
      rehabilitation services under the                       information sharing among providers,                   hospitals must diligently review all
      hospital ‘‘incident-to’’ benefit, which                 and systems for the tracking and                       financial relationships with referring
      requires that the services of non-                      reduction of medical errors, among                     physicians for compliance with the
      physician personnel be furnished under                  others, will require hospitals to depend               Stark law.
      a physician’s direct supervision. In                    more on information technologies.                         For purposes of analyzing a financial
      addition to satisfying the supervision                  Information technology presents new                    relationship under the Stark law, the
      requirement, hospitals must ensure that                 opportunities to advance health care                   following three-part inquiry is useful:
      cardiac rehabilitation services are                     efficiency, but also new challenges to                    • Is there a referral from a physician
      reasonable and necessary.35                             ensuring the accuracy of claims and the                for a designated health service? If not,
        • Failure to follow Medicare rules                    information used to generate claims. It                then there is no Stark law issue
      regarding payment for costs related to                  is often difficult for purchasers of                   (although other fraud and abuse
      educational activities 36—Hospitals                     computer systems and software to know                  authorities, such as the anti-kickback
      should pay particular attention to these                exactly how the system operates and                    statute, may be implicated). If the
      rules when implementing dental or                       generates information. Prudent hospitals               answer is ‘‘yes,’’ the next inquiry is:
      other education programs, particularly                  will take steps to ensure that they                       • Does the physician (or an
      those not historically operated at the                  thoroughly assess all new computer                     immediate family member) have a
      hospital.                                               systems and software that impact                       financial relationship with the entity
      4. Use of Information Technology                        coding, billing, or the generation or                  furnishing the DHS (e.g., the hospital)?
                                                              transmission of information related to                 Again, if the answer is no, the Stark law
         The implementation of the OPPS                       the Federal health care programs or                    is not implicated. However, if the
      increased the need for hospitals to pay                 their beneficiaries.                                   answer is ‘‘yes,’’ the third inquiry is:
      particular attention to their                                                                                     • Does the financial relationship fit in
      computerized billing, coding, and                       B. The Referral Statutes: The Physician                an exception? If not, the statute has been
      information systems. Billing and coding                 Self-Referral Law (the ‘‘Stark’’ Law) and              violated.
      under the OPPS is more data intensive                   the Federal Anti-Kickback Statute                         Detailed definitions of the highlighted
      than billing and coding under the                       1. The Physician Self-Referral Law                     terms (and others) are set forth in
      inpatient PPS. When the OPPS began,                                                                            regulations at 42 CFR 411.351 through
      many hospitals’ existing systems were                      From a hospital compliance
                                                              perspective, the physician self-referral               411.361 (substantial additional
      unable to accommodate the new                                                                                  explanatory material appears in the
      requirements and required adjustments.                  law (section 1877 of the Social Security
                                                              Act (Act), commonly known as the                       regulatory preambles to the final
         As the health care industry moves                                                                           regulations: 66 FR 856 (January 4, 2001);
      forward, hospitals will increasingly rely               ‘‘Stark’’ law) should be viewed as a
                                                                                                                     69 FR 16054 (March 26, 2004); and 69
                                                              threshold statute. Simply put, hospitals
                                                                                                                     FR 17933 (April 6, 2004)). Importantly,
         34 See 42 CFR 412.100. See also, chapter 3,          face significant financial exposure
                                                                                                                     a financial relationship can be almost
      section 90 of the Medicare Claims Processing            unless their financial relationships with
      Manual, available on CMS’s webpage at http://                                                                  any kind of direct or indirect ownership
                                                              referring physicians fit squarely in
      www.cms.gov/manuals/104_claims/clm104c03.pdf.                                                                  or investment relationship (e.g., stock
                                                              statutory or regulatory exceptions to the
      See, e.g., OIG Audit Report A–04–02–02017, ‘‘Audit                                                             ownership, a partnership interest, or
      of Medicare Costs for Organ Acquisitions at Tampa       statute. The statute prohibits hospitals
                                                                                                                     secured debt) or direct or indirect
      General Hospital,’’ April 2003, available on our        from submitting—and Medicare from
      webpage at http://oig.hhs.gov/oas/reports/region4/
                                                                                                                     compensation arrangement, whether in
                                                              paying—any claim for a ‘‘designated
      40202017.pdf.                                                                                                  cash or in-kind (e.g., a rental contract,
                                                              health service’’ (DHS) if the referral of
         35 See section 35–25 of the Medicare Coverage                                                               personal services contract, salary, gift,
      Issues Manual. See, e.g., OIG Audit Report A–01–        the DHS comes from a physician with                    or gratuity), between a referring
      03–00516, ‘‘Review of Outpatient Cardiac                whom the hospital has a prohibited                     physician (or immediate family
      Rehabilitation Services at the Cooley Dickinson         financial relationship.38 This is true                 member) and a hospital. Moreover, the
      Hospital,’’ December 2003, available on our             even if the prohibited financial
      webpage at http://oig.hhs.gov/oas/reports/region1/                                                             financial relationship need not relate to
      10300516.pdf.                                           relationship is the result of inadvertence             the provision of DHS (e.g., a joint
         36 Payments for direct graduate medical education    or error. In addition, hospitals and                   venture between a hospital and a
      (GME) and indirect graduate medical education           physicians that knowingly violate the                  physician to operate a hospice would
      (IME) costs are in part based upon the number of        statute may be subject to civil monetary
      full-time equivalent (FTE) residents at each hospital                                                          create an indirect compensation
      and the proportion of time residents spend in
                                                              penalties and exclusion from the                       relationship between the hospital and
      training. Hospitals that inappropriately calculate      Federal health care programs. Under                    the physician for Stark law purposes).
      the number of FTE residents risk receiving              certain circumstances, a knowing                          The statutory and regulatory
      inappropriate medical education payments.               violation of the Stark law may also give
      Hospitals should have in place procedures                                                                      exceptions are the key to compliance
      regarding (i) resident rotation monitoring, (ii)
                                                              rise to liability under the False Claims               with the Stark law. Any financial
      resident credentialing, (iii) written agreements with                                                          relationship between the hospital and a
                                                                37 For more information regarding Medicare’s
      non-hospital providers, and (iv) the approval                                                                  physician who refers to the hospital
      process for research activities. For more information   Electronic Data Interchange programs, see http://
      regarding medical education reimbursement, see 42       www.cms.gov/providers/edi/.                            must fit in an exception. Exceptions
      CFR 413.86 (GME requirements) and 42 CFR                  38 The statute also prohibits physicians from

      412.105 (IME requirements). See, e.g., OIG Audit        referring DHS to entities, including hospitals, with      39 The statute lists ten additional categories of

      Report A–01–01–00547 ‘‘Review of Graduate               which they have prohibited financial relationships.    DHS, including, among others, clinical laboratory
      Medical Education Costs Claimed by the Hartford         However, the billing prohibition and nonpayment        services, radiology services, and durable medical
      Hospital for Fiscal Year Ending September 30,           sanction apply only to the DHS entity (e.g., the       equipment. See section 1877(h)(6) of the Act.
      1999,’’ October 2003, available on our webpage at       hospital). See section 1877(a) of the Act. Section     Hospitals and health systems that own or operate
      http://oig.hhs.gov/oas/reports/region1/                 1903(s) of the Act extends the statutory prohibition   free-standing DHS entities should be mindful of the
      10100547.pdf.                                           to Medicaid-covered services.                          ten additional DHS categories.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00076   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
      32018                           Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices

      exist in the statute and regulations for                determinations of fair market value and                of anything of value in return for
      many common types of business                           for ensuring that needed items and                     purchasing, leasing, ordering, or
      arrangements. To fit in an exception, an                services are furnished or rendered.                    arranging for or recommending the
      arrangement must squarely meet all of                   Other areas that may require careful                   purchase, lease, or ordering of any item
      the conditions set forth in the exception.              monitoring include, without limitation,                or service reimbursable in whole or in
      Importantly, it is the actual relationship              tracking the total value of non-monetary               part by a Federal health care program.
      between the parties, and not merely the                 compensation provided annually to                      The statute extends equally to the
      paperwork, that must fit in an                          each referring physician, tracking the                 solicitation or acceptance of
      exception. Unlike the anti-kickback safe                provision and value of medical staff                   remuneration for referrals or the
      harbors, which are voluntary, fitting in                incidental benefits, and monitoring the                generation of other business payable by
      an exception is mandatory under the                     provision of professional courtesy.40 As               a Federal health care program. Liability
      Stark law.                                              discussed further in the anti-kickback                 under the anti-kickback statute is
         Compliance with a Stark law                          section below, hospitals should exercise               determined separately for each party
      exception does not immunize an                          care when recruiting physicians.                       involved. In addition to criminal
      arrangement under the anti-kickback                     Importantly, while the final regulations               penalties, violators may be subject to
      statute. Rather, the Stark law sets a                   contain a limited exception for certain                civil monetary penalties and exclusion
      minimum standard for arrangements                       joint recruiting by hospitals and existing             from the Federal health care programs.
      between physicians and hospitals. Even                  group practices, the exception strictly                Hospitals should also be mindful that
      if a hospital-physician relationship                    forbids the use of income guarantees                   compliance with the anti-kickback
      qualifies for a Stark law exception, it                 that shift group practice overhead or                  statute is a condition of payment under
      should still be reviewed for compliance                 expenses to the hospital or any payment                Medicare and other Federal health care
      with the anti-kickback statute. The anti-               structure that otherwise transfers                     programs. See, e.g., Medicare Federal
      kickback statute is discussed in greater                remuneration to the group practice.                    Health Care Provider/Supplier
      detail in the next subsection.                             Further information about the Stark                 Application, CMS Form 855A,
         Because of the significant exposure                  law and applicable regulations can be                  Certification Statement at section 15,
      for hospitals under the Stark law, we                   found on CMS’s webpage at http://                      paragraph A.3, available on CMS’s
      recommend that hospitals implement                      cms.gov/medlearn/refphys.asp.                          webpage at http://www.cms.gov/
      systems to ensure that all conditions in                Information regarding CMS’s Stark                      providers/enrollment/forms/. As such,
      the exceptions upon which they rely are                 advisory opinion process can be found                  liability may arise under the False
      fully satisfied. For example, many of the               at http://cms.gov/physicians/aop/                      Claims Act where the anti-kickback
      exceptions, such as the rental and                      default.asp.                                           statute violation results in the
      personal services exceptions, require
                                                              2. The Federal Anti-Kickback Statute                   submission of a claim for payment
      signed, written agreements with
                                                                 Hospitals should also be aware of the               under a Federal health care program.
      physicians. We are aware of numerous
      instances in which hospitals failed to                  Federal anti-kickback statute, section                    Although liability under the anti-
      maintain these signed written                           1128B(b) of the Act, and the constraints               kickback statute ultimately turns on a
      agreements, often inadvertently (e.g., a                it places on business arrangements                     party’s intent, it is possible to identify
      holdover lease without a written lease                  related directly or indirectly to items or             arrangements or practices that may
      amendment; a physician hired as an                      services reimbursable by any Federal                   present a significant potential for abuse.
      independent contractor for a short-term                 health care program, including, but not                For purposes of analyzing an
      project without a signed agreement). To                 limited to, Medicare and Medicaid. The                 arrangement or practice under the anti-
      avoid a large overpayment, hospitals                    anti-kickback statute prohibits in the                 kickback statute, the following two
      should ensure frequent and thorough                     health care industry some practices that               inquiries are useful:
      review of their contracting and leasing                 are common in other business sectors,
                                                              such as offering gifts to reward past or                  • Does the hospital have any
      processes. The final regulations contain
                                                              potential new referrals.                               remunerative relationship between itself
      a new limited exception for certain
                                                                 The anti-kickback statute is a criminal             (or its affiliates or representatives) and
      inadvertent, temporary instances of
                                                              prohibition against payments (in any                   persons or entities in a position to
      noncompliance with another exception.
                                                              form, whether the payments are direct                  generate Federal health care program
      This exception may only be used on an
                                                              or indirect) made purposefully to                      business for the hospital (or its
      occasional basis. Hospitals should be
                                                              induce or reward the referral or                       affiliates) directly or indirectly? Persons
      mindful that this exception is not a
                                                              generation of Federal health care                      or entities in a position to generate
      substitute for vigilant contracting and
                                                              program business. The anti-kickback                    Federal health care program business for
      leasing oversight. In addition, hospitals
                                                              statute addresses not only the offer or                a hospital include, for example,
      should review the new reporting
      requirements at 42 CFR 411.361, which                   payment of anything of value for patient               physicians and other health care
      generally require hospitals to retain                   referrals, but also the offer or payment               professionals, ambulance companies,
      records that the hospitals know or                                                                             clinics, hospices, home health agencies,
      should know about in the course of                         40 Hospitals affiliated with academic medical       nursing facilities, and other hospitals.
      prudently conducting business.                          centers should be aware that the regulations contain      • With respect to any remunerative
                                                              a special exception for certain academic medical
      Hospitals should ensure that they have                  center arrangements. See 42 CFR 411.353(e).            relationship so identified, could one
      policies and procedures in place to                     Specialty hospitals should be mindful of certain       purpose of the remuneration be to
      address these requirements.                             limitations on new physician-owned specialty           induce or reward the referral or
                                                              hospitals contained in section 507 of the Medicare
         In addition, because many exceptions                 Prescription Drug, Improvement and Modernization
                                                                                                                     recommendation of business payable in
      to the Stark law require fair market                    Act of 2003. See CMS’s One-Time Notification           whole or in part by a Federal health care
      value compensation for items or                         regarding the 18-month moratorium on physician         program? Importantly, under the anti-
      services actually needed and rendered,                  investment in specialty hospitals, CMS Manual          kickback statute, neither a legitimate
                                                              System Pub. 100–20 One-Time Notification,
      hospitals should have appropriate                       Transmittal 26 (March 19, 2004), available on
                                                                                                                     business purpose for the arrangement,
      processes for making and documenting                    CMS’s webpage at http://www.cms.gov/manuals/           nor a fair market value payment, will
      reasonable, consistent, and objective                   pm_trans/R62OTN.pdf.                                   legitimize a payment if there is also an


VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00077   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
                                      Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices                                                     32019

      illegal purpose (i.e., inducing Federal                    • cooperative hospital services                       propriety of any particular arrangement
      health care program business).                          organizations safe harbor, 42 CFR                        can only be determined after a detailed
         Although any arrangement satisfying                  1001.952(q),                                             examination of the attendant facts and
      both tests implicates the anti-kickback                    • ambulatory surgical centers safe                    circumstances. The identification of a
      statute and requires careful scrutiny by                harbor, 42 CFR 1001.952(r),                              given practice or activity as ‘‘suspect’’ or
      a hospital, the courts have identified                     • ambulance replenishing safe harbor,                 as an area of ‘‘risk’’ does not mean it is
      several potentially aggravating                         42 CFR 1001.952(v), and                                  necessarily illegal or unlawful, or that it
      considerations that can be useful in                       • safe harbors for certain managed                    cannot be properly structured to fit in a
      identifying arrangements at greatest risk               care and risk sharing arrangements, 42                   safe harbor; nor does it mean that the
      of prosecution. In particular, hospitals                CFR 1001.952(m), (t), and (u).41                         practice or activity is not beneficial from
      should ask the following questions,                        Safe harbor protection requires strict                a clinical, cost, or other perspective.
      among others, about any potentially                     compliance with all applicable                           Rather, the areas identified below are
      problematic arrangements or practices                   conditions set out in the relevant safe                  areas of activity that have a potential for
      they identify:                                          harbor.42 Although compliance with a                     abuse and that should receive close
                                                              safe harbor is voluntary and failure to                  scrutiny from hospitals. The discussion
         • Does the arrangement or practice                   comply with a safe harbor does not                       highlights potential risks under the anti-
      have a potential to interfere with, or                  mean an arrangement is illegal per se,                   kickback statute arising from hospitals’
      skew, clinical decision-making?                         we recommend that hospitals structure                    relationships in the following five
         • Does the arrangement or practice
                                                              arrangements to fit in a safe harbor                     categories: (a) Joint ventures; (b)
      have a potential to increase costs to
                                                              whenever possible. Arrangements that                     compensation arrangements with
      Federal health care programs,
                                                              do not fit in a safe harbor must be                      physicians; (c) relationships with other
      beneficiaries, or enrollees?
                                                              evaluated on a case-by-case basis.                       health care entities; (d) recruitment
         • Does the arrangement or practice
                                                                 Other available guidance includes                     arrangements; (e) discounts; (f) medical
      have a potential to increase the risk of
                                                              special fraud alerts and advisory                        staff credentialing; and (g) malpractice
      overutilization or inappropriate
                                                              bulletins issued by the OIG identifying                  insurance subsidies. (In addition, the
      utilization?
                                                              and discussing particular practices or                   kickback risks associated with
         • Does the arrangement or practice
                                                              issues of concern and OIG advisory                       gainsharing arrangements are discussed
      raise patient safety or quality of care
                                                              opinions issued to specific parties about                below in section II.C of this guidance).
      concerns?                                                                                                           Physicians are the primary referral
                                                              their particular business
         Hospitals that have identified                       arrangements.43 A hospital concerned                     source for hospitals, and, therefore,
      potentially problematic arrangements or                 about an existing or proposed                            most of the discussion below focuses on
      practices can take a number of steps to                 arrangement may request a binding OIG                    hospitals’ relationships with physicians.
      reduce or eliminate the risk of an anti-                advisory opinion regarding whether the                   Notwithstanding, hospitals also receive
      kickback violation. Detailed guidance                   arrangement violates the Federal anti-                   referrals from other health care
      relating to a number of specific practices              kickback statute or other OIG fraud and                  professionals, including physician
      is available from several sources. Most                 abuse authorities, using the procedures                  assistants and nurse practitioners, and
      importantly, the anti-kickback statute                  set out at 42 CFR part 1008. The safe                    from other providers and suppliers
      and the corresponding regulations                       harbor regulations (and accompanying                     (such as ambulance companies, clinics,
      establish a number of ‘‘safe harbors’’ for              Federal Register preambles), fraud                       hospices, home health agencies, nursing
      common business arrangements. The                       alerts and bulletins, advisory opinions                  facilities, and other hospitals).
      following safe harbors are of most                      (and instructions for obtaining them,                    Therefore, in addition to reviewing their
      relevance to hospitals:                                 including a list of frequently asked                     relationships with physicians, hospitals
         • Investment interests safe harbor, 42               questions), and other guidance are                       should also review their relationships
      CFR 1001.952(a),                                        available on the OIG webpage at http:/                   with non-physician referral sources to
         • space rental safe harbor, 42 CFR                   /oig.hhs.gov.                                            ensure that the relationships do not
      1001.952(b),                                               The following discussion highlights                   violate the anti-kickback statute. The
         • equipment rental safe harbor, 42                   several known areas of potential risk                    principles described in the following
      CFR 1001.952(c),                                        under the anti-kickback statute. The                     discussions can be used to assess the
         • personal services and management                                                                            risk associated with relationships with
      contracts safe harbor, 42 CFR                             41 Importantly, the anti-kickback statute safe         both physician and non-physician
      1001.952(d),                                            harbors are not the same as the Stark law exceptions     referral sources.
         • sale of practice safe harbor, 42 CFR               described above at section II.B.1 of this guidance.
                                                              An arrangement’s compliance with the anti-               a. Joint Ventures
      1001.952(e),                                            kickback statute and the Stark law must be
         • referral services safe harbor, 42 CFR              evaluated separately.
                                                                                                                          The OIG has a long-standing concern
      1001.952(f),                                              42 Parties to an arrangement cannot obtain safe        about joint venture arrangements
         • discount safe harbor, 42 CFR                       harbor protection by entering into a sham contract       between those in a position to refer or
      1001.952(h),                                            that complies with the written agreement                 generate Federal health care program
                                                              requirement of a safe harbor and appears, on paper,
         • employment safe harbor, 42 CFR                     to meet all of the other safe harbor requirements,
                                                                                                                       business and those providing items or
      1001.952(i),                                            but does reflect the actual arrangement between the      services reimbursable by Federal health
         • group purchasing organizations safe                parties. In other words, in assessing compliance         care programs.44 In the context of joint
      harbor, 42 CFR 1001.952(j),                             with a safe harbor, the OIG examines not only            ventures, our chief concern is that
                                                              whether the written contract satisfies all of the safe
         • waiver of beneficiary coinsurance                  harbor requirements, but also whether the actual
                                                                                                                       remuneration from a joint venture might
      and deductible amounts safe harbor, 42                  arrangement satisfies the requirements.
                                                                                                                       be a disguised payment for past or
      CFR 1001.952(k),                                          43 While informative for guidance purposes, an         future referrals to the venture or to one
         • practitioner recruitment safe harbor,              OIG advisory opinion is binding only with respect
      42 CFR 1001.952(n),                                     to the particular party or parties that requested the      44 See 1989 Special Fraud Alert on Joint Venture
                                                              opinion. The analyses and conclusions set forth in       Arrangements, reprinted in the Federal Register, 59
         • obstetrical malpractice insurance                  OIG advisory opinions are very fact-specific.            FR 65372 (December 19, 1994), and available on our
      subsidies safe harbor, 42 CFR                           Accordingly, hospitals should be aware that              webpage at http://oig.hhs.gov/fraud/docs/
      1001.952(o),                                            different facts may lead to different results.           alertsandbulletins/121994.html.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00078   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM    08JNN1
      32020                           Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices

      or more of its participants. Such                       —participants are offered investment                          Investors in such clinical ventures
      remuneration may take a variety of                        shares for a nominal or no capital                          should look to other safe harbors and to
      forms, including dividends, profit                        contribution;                                               the factors noted above.
      distributions, or, with respect to                      —the amount of capital that participants                         These safe harbors protect
      contractual joint ventures, the economic                  invest is disproportionately small,                         remuneration in the form of returns on
      benefit received under the terms of the                   and the returns on the investment are                       investment interests (i.e., money paid by
      operative contracts.                                      disproportionately large, when                              an entity to its owners or investors as
        When scrutinizing joint ventures                        compared to a typical investment in a                       dividends, profit distributions, or the
      under the anti-kickback statute,                          new business enterprise;                                    like). However, they do not protect
      hospitals should examine the following                  —participants are permitted to borrow                         payments made by participating
      factors, among others:                                    their capital investments from another                      investors to a venture or payments made
                                                                participant or from the joint venture,                      by the venture to other parties, such as
        • The manner in which joint venture                     and to pay back the loan through                            vendors, contractors, or employees
      participants are selected and retained. If                deductions from profit distributions,                       (although in some cases these
      participants are selected or retained in                  thus eliminating even the need to                           arrangements may fit in other safe
      a manner that takes into account,                         contribute cash;                                            harbors).
      directly or indirectly, the value or                    —participants are paid extraordinary                             As we originally observed in our 1989
      volume of referrals, the joint venture is                 returns on the investment in                                Special Fraud Alert on Joint Venture
      suspect. The existence of one or more of                  comparison with the risk involved; or                       Arrangements,46 joint ventures may take
      the following indicators suggests that                  —a substantial portion of the gross                           a variety of forms, including a
      there might be an improper nexus                          revenues of the venture are derived                         contractual arrangement between two or
      between the selection or retention of                     from participant-driven referrals.                          more parties to cooperate in a common
      participants and the value or volume of                   In light of the obvious risk inherent in                    and distinct enterprise providing items
      their referrals:                                        joint ventures, whenever possible,                            or services, thereby creating a
      —a substantial number of participants                   hospitals should structure joint ventures                     ‘‘contractual joint venture.’’ We
       are in a position to make or influence                 to fit squarely in one of the following                       elaborated more fully on contractual
       referrals to the venture, other                        safe harbors for investment interests:                        joint ventures in our 2003 Special
       participants, or both;                                   • the ‘‘small entity’’ investment safe                      Advisory Bulletin on Contractual Joint
      —participants that are expected to make                 harbor, 42 CFR 1001.952(a)(2), which                          Ventures.47 Contractual joint ventures
       a large number of referrals are offered                applies to returns on investments as                          pose the same kinds of risks as equity
       a greater or more favorable investment                 long as no more than 40 percent of the                        joint ventures and should be analyzed
       or business opportunity in the joint                   investment interests are held by                              similarly. Factors to consider include,
       venture than those anticipated to                      investors who are in a position to make                       for example, whether the hospital is
       make fewer referrals;                                  or influence referrals to, furnish items or                   expanding into a new line of business
      —participants are actively encouraged                   services to, or otherwise generate                            created predominately or exclusively to
       or required to make referrals to the                   business for the venture (interested                          serve the hospital’s existing patient
       joint venture;                                         investors), no more than 40 percent of                        base, whether a would-be competitor of
                                                              revenues come from referrals or                               the new line of business is providing all
      —participants are encouraged or                         business otherwise generated from                             or most of the key services, and whether
       required to divest their ownership                     investors, and all other conditions are                       the hospital assumes little or no bona
       interest if they fail to sustain an                    satisfied; 45                                                 fide business risk. An example of a
       ‘‘acceptable’’ level of referrals;                       • the safe harbor for investment                            potentially problematic contractual joint
      —the venture (or its participants) tracks               interests in an entity located in an                          venture would be a hospital contracting
       its sources of referrals and distributes               underserved area, 42 CFR                                      with an existing durable medical
       this information to the participants; or               1001.952(a)(3), which applies to                              equipment (DME) supplier to operate
      —the investment interests are                           ventures located in medically                                 the hospital’s newly formed DME
       nontransferable or subject to transfer                 underserved areas (as defined in                              subsidiary (with its own DME supplier
       restrictions related to referrals.                     regulations issued by the Department                          number) on essentially a turnkey basis,
         • The manner in which the joint                      and set forth at 42 CFR part 51c), as long                    with the hospital primarily furnishing
      venture is structured. The structure of                 as no more than 50 percent of the                             referrals and assuming little or no
      the joint venture is suspect if a                       investment interests are held by                              business risk.48
      participant is already engaged in the                   interested investors and all other                               Hospitals should be aware that, for
      line of business to be conducted by the                 conditions are satisfied; or                                  reasons described in our 2003 Special
      joint venture, and that participant will                  • the hospital-physician ambulatory                         Advisory Bulletin on Contractual Joint
      own all or most of the equipment,                       surgical center (ASC) safe harbor, 42                         Ventures,49 safe harbor protection may
      provide or perform all or most of the                   CFR 1001.952(r)(4). This safe harbor
      items or services, or take responsibility               only protects investments in Medicare-                           46 See 1989 Special Fraud Alert on Joint Venture

                                                              certified ASCs owned by hospitals and                         Arrangements, supra note 44.
      for all or most of the day-to-day                                                                                        47 This Special Advisory Bulletin is available on
      operations. With this kind of structure,                certain qualifying physicians.
                                                                                                                            our webpage at http://oig.hhs.gov/fraud/docs/
      the co-participant’s primary                            Importantly, it does not protect                              alertsandbulletins/042303SABJointVentures.pdf.
      contribution is typically as a captive                  investments by hospitals and physicians                          48 Contractual ventures with existing clinical

      referral base.                                          in non-ASC clinical joint ventures,                           laboratories and outpatient therapy providers,
                                                              including, for example, cardiac                               among others, are also potentially problematic,
         • The manner in which the                                                                                          particularly if the venture is functionally a turnkey
                                                              catheterization or vascular labs,
      investments are financed and profits are                                                                              operation that enables a hospital to use its captive
                                                              oncology centers, and dialysis facilities.                    referrals to expand into a new line of business with
      distributed. The existence of one or
                                                                                                                            little or no contribution of resources or assumption
      more of the following indicators                          45 There is also a safe harbor for investment               of real risk.
      suggests that the joint venture may be a                interests in large entities (i.e., entities with over fifty      49 See 2003 Special Advisory Bulletin on

      vehicle to disguise referrals:                          million dollars in assets), 42 CFR 1001.952(a)(1).            Contractual Joint Ventures, supra note 47.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00079   Fmt 4703    Sfmt 4703    E:\FR\FM\08JNN1.SGM       08JNN1
                                       Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices                                           32021

      not be available for contractual joint                   include, without limitation, medical                     • Is the determination of fair market
      ventures, and attempts to carve out                      director agreements, personal or                      value based upon a reasonable
      separate contracts and qualify each                      management services agreements, space                 methodology that is uniformly applied
      separately for safe harbor protection                    or equipment leases, and agreements for               and properly documented? If fair market
      may be ineffectual and leave the parties                 the provision of billing, nursing, or                 value is based on comparables, the
      at risk under the statute.50                             other staff services. Although many                   hospital should ensure that the
         If a hospital is planning to participate,             compensation arrangements are                         comparison entities are not actual or
      directly or indirectly, in a joint venture               legitimate business arrangements,                     potential referral sources, so that the
      involving referring physicians and the                   compensation arrangements may violate                 market rate for the services is not
      venture does not qualify for safe harbor                 the anti-kickback statute if one purpose              distorted.
      protection, the hospital should                          of the arrangement is to compensate                      • Is the compensation commensurate
      scrutinize the venture with care, taking                 physicians for past or future referrals.52            with the fair market value of a physician
      into account the factors noted above,                       The general rule of thumb is that any              with the skill level and experience
      and consider obtaining advice from an                    remuneration flowing between hospitals                reasonably necessary to perform the
      experienced attorney. At a minimum, to                   and physicians should be at fair market               contracted services?
      reduce (but not necessarily eliminate)                   value for actual and necessary items                     • Were the physicians selected to
      the risk of abuse, hospitals should                      furnished or services rendered based                  participate in the arrangement in whole
      consider (i) barring physicians                          upon an arm’s-length transaction and                  or in part because of their past or
      employed by the hospital or its affiliates               should not take into account, directly or             anticipated referrals?
      from referring to the joint venture; (ii)                indirectly, the value or volume of any                   • Is the arrangement properly and
      taking steps to ensure that medical staff                past or future referrals or other business            fully documented in writing? Are the
      and other affiliated physicians are not                  generated between the parties.                        physicians documenting the services
      encouraged in any manner to refer to the                 Arrangements under which hospitals                    they provide? Is the hospital monitoring
      joint venture; (iii) notifying physicians                provide physicians with items or                      the services?
      annually in writing of the preceding                     services for free or less than fair market               • In the case of physicians staffing
      policy; (iv) refraining from tracking in                 value, relieve physicians of financial                hospital outpatient departments, are
      any manner the volume of referrals                       obligations they would otherwise incur,               safeguards in place to ensure that the
      attributable to particular referrals                     or inflate compensation paid to                       physicians do not use hospital
      sources; (v) ensuring that no physician                  physicians for items or services pose                 outpatient space, equipment, or
      compensation is tied in any manner to                    significant risk. In such circumstances,              personnel to conduct their private
      the volume or value of referrals to, or                  an inference arises that the                          practice and that they bill the
      other business generated for, the                        remuneration may be in exchange for                   appropriate site-of-service modifier?
      venture; (vi) disclosing all financial                   generating business.
      interests to patients;51 and (vii)                                                                                Whenever possible, hospitals should
                                                                  In particular, hospitals should review             structure their compensation
      requiring that other participants in the                 their physician compensation
      joint venture adopt similar steps.                                                                             arrangements with physicians to fit in a
                                                               arrangements and carefully assess the                 safe harbor. Potentially applicable are
      b. Compensation Arrangements With                        risk of fraud and abuse using the                     the space rental safe harbor, 42 CFR
      Physicians                                               following factors, among others:                      1001.952(b), the equipment rental safe
                                                                  • Are the items and services obtained              harbor, 42 CFR 1001.952(c), the
         Hospitals enter into a variety of
                                                               from a physician legitimate,                          personal services and management
      compensation arrangements with
                                                               commercially reasonable, and necessary                contracts safe harbor, 42 CFR
      physicians whereby physicians provide
                                                               to achieve a legitimate business purpose              1001.952(d), the sale of practice safe
      items or services to, or on behalf of, the
                                                               of the hospital (apart from obtaining                 harbor, 42 CFR 1001.952(e), the referral
      hospital. Conversely, in some
      arrangements, hospitals provide items                    referrals)? Assuming that the hospital                services safe harbor, 42 CFR 1001.952(f),
      or services to physicians. Examples of                   needs the items and services, does the                the employee safe harbor, 42 CFR
      these compensation arrangements                          hospital have multiple arrangements                   1001.952(i), the practitioner recruitment
                                                               with different physicians, so that in the             safe harbor, 42 CFR 1001.952(n), and the
         50 The Medicare program permits hospitals to          aggregate the items or services provided              obstetrical malpractice insurance
      furnish services ‘‘under arrangements’’ with other       by all physicians exceed the hospital’s               subsidies safe harbor, 42 CFR
      providers or suppliers. Hospitals frequently furnish     actual needs (apart from generating                   1001.952(o). An arrangement must fit
      services ‘‘under arrangements’’ with an entity           business)?
      owned, in whole or in part, by referring physicians.                                                           squarely in a safe harbor to be protected.
      Standing alone, these ‘‘under arrangements’’                • Does the compensation represent                  Arrangements that do not fit in a safe
      relationships do not fall within the scope of            fair market value in an arm’s-length                  harbor should be reviewed in light of
      problematic contractual joint ventures described in      transaction for the items and services?               the totality of all facts and
      the Special Fraud Alert; however, these                  Could the hospital obtain the services
      relationships will violate the anti-kickback statute                                                           circumstances. At minimum, hospitals
      if remuneration is purposefully offered or paid to       from a non-referral source at a cheaper               should develop policies and procedures
      induce referrals (e.g., paying above-market rates for    rate or under more favorable terms?                   requiring physicians to document, and
      the services to influence referrals or otherwise tying   Does the remuneration take into                       the hospital to monitor, the services or
      the arrangements to referrals in any manner). These      account, directly or indirectly, the value
      ‘‘under arrangements’’ relationships should be                                                                 items provided under compensation
      structured, when possible, to fit within an anti-        or volume of any past or future referrals             arrangements (including, for example,
      kickback safe harbor. They must fit within a Stark       or other business generated between the               by using written time reports). In some
      exception, even if the service furnished ‘‘under         parties? Is the compensation tied,
      arrangements’’ is not itself a DHS. See 66 FR 941–                                                             cases, particularly rentals, hospitals
      2 (January 4, 2001); 69 FR 16054, 16106 (March 26,
                                                               directly or indirectly, to Federal health             should consider obtaining an
      2004).                                                   care program reimbursement?                           independent fair market valuation using
         51 While disclosure to patients does not offer
                                                                                                                     appropriate health care valuation
      sufficient protection against Federal health care          52 As previously noted, a hospital should ensure

      program abuse, effective and meaningful disclosure       that each compensation arrangement with a
                                                                                                                     standards.
      offers some protection against possible abuses of        referring physician fits squarely in a statutory or      Arrangements between hospitals and
      patient trust.                                           regulatory exception to the Stark law.                hospital-based physicians (e.g.,


VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00080   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
      32022                           Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices

      anesthesiologists, radiologists, and                    durable medical equipment companies,                     recruitment arrangements, hospitals
      pathologists) raise some different                      laboratories, pharmaceutical companies,                  should scrutinize these arrangements
      concerns. In these arrangements, it is                  and other hospitals. In cases where a                    with care. When assessing the degree of
      typically the hospitals making referrals                hospital is the referral source for other                risk associated with recruitment
      to the physicians, rather than the                      providers or suppliers, it would be                      arrangements, hospitals should examine
      physicians making referrals to the                      prudent for the hospital to scrutinize                   the following factors, among others:
      hospitals. Such arrangements may                        carefully any remuneration flowing to                       • The size and value of the
      violate the anti-kickback statute if the                the hospital from the provider or                        recruitment benefit. Does the benefit
      arrangements: (i) Compensate                            supplier to ensure compliance with the                   exceed what is reasonably necessary to
      physicians for less than the fair market                anti-kickback statute, using the                         attract a qualified physician to the
      value of goods or services provided by                  principles outlined above.                               particular community? Has the hospital
      the physicians to the hospitals; or (ii)                Remuneration may include, for                            previously tried and failed to recruit or
      require physicians to pay more than the                 example, free or below-market-value                      retain physicians?
      fair market value for services provided                 items and services or the relief of a                       • The duration of payout of the
      by the hospitals.53 We are aware that                   financial obligation.                                    recruitment benefit. Total benefit payout
      hospitals have long provided for the                       Hospitals should also review their                    periods extending longer than three
      delivery of certain hospital-based                      managed care arrangements to ensure                      years from the initial recruitment
      physician services through the grant of                 compliance with the anti-kickback                        agreement should trigger heightened
      a contract to a physician or physician                  statute. Managed care arrangements that                  scrutiny.
      group akin to a franchise, which shifts                 do not fit within one of the managed                        • The practice of the existing
      management, staffing, and other                         care and risk sharing safe harbors at 42                 physician. Is the physician a new
      administrative functions, and in some                   CFR 1001.952(m), (t), or (u) must be                     physician with few or no patients or an
      cases limited clinical duties, to                       evaluated on a case-by-case basis.                       established practitioner with a ready
      physicians at no cost to the hospitals.                 d. Recruitment Arrangements                              stream of referrals? Is the physician
      Such arrangements are of value to the                                                                            relocating from a substantial distance so
      hospital as well as the physicians, value                 Many hospitals provide incentives to
                                                              recruit a physician or other health care                 that referrals are unlikely to follow or is
      that may well have nothing to do with                                                                            it possible for the physician to bring an
      the value or volume of referrals flowing                professional to join the hospital’s
                                                              medical staff and provide medical                        established patient base?
      from the hospital to the hospital-based                                                                             • The need for the recruitment. Is the
      physicians. In an appropriate context,                  services to the surrounding community.
                                                                                                                       recruited physician’s specialty
      an arrangement that requires a hospital-                When used to bring needed physicians
                                                                                                                       necessary to provide adequate access to
      based physician or physician group to                   to an underserved community, these
                                                                                                                       medically necessary care for patients in
      perform reasonable administrative or                    arrangements can benefit patients.
                                                                                                                       the community? Do patients already
      clinical duties directly related to their               However, recruitment arrangements
                                                              pose substantial fraud and abuse risk.                   have reasonable access to comparable
      hospital-based professional services at                                                                          services from other providers or
      no charge to the hospital or its patients                 In most cases, the recruited physician
                                                              establishes a private practice in the                    practitioners in or near the community?
      would not violate the anti-kickback                                                                              An assessment of community need
      statute. Whether a particular                           community instead of becoming a
                                                              hospital employee.55 Such arrangements                   based wholly or partially on the
      arrangement with hospital-based                                                                                  competitive interests of the recruiting
      physicians runs afoul of the anti-                      potentially implicate the anti-kickback
                                                              statute if one purpose of the recruitment                hospital or existing physician practices
      kickback statute would depend on the                                                                             would subject the recruitment payments
      specific facts and circumstances,                       arrangement is to induce referrals to the
                                                              recruiting hospital. Safe harbor                         to heightened scrutiny under the statute.
      including the intent of the parties.
                                                              protection is available for certain                         Significantly, hospitals should be
      c. Relationships With Other Health Care                 recruitment arrangements offered by                      aware that the practitioner recruitment
      Entities                                                hospitals to attract primary care                        safe harbor does not protect ‘‘joint
         As addressed in the preceding                        physicians and practitioners to health                   recruitment’’ arrangements between
      subsection, hospitals may obtain                        professional shortage areas (HPSAs), as                  hospitals and other entities or
      referrals of Federal health care program                defined in regulations issued by the                     individuals, such as solo practitioners,
      business from a variety of health care                  Department.56 The scope of this safe                     group practices, or managed care
      professionals and entities. In addition,                harbor is very limited. In particular, the               organizations, pursuant to which the
      when furnishing inpatient, outpatient,                  safe harbor does not protect (a)                         hospital makes payments directly or
      and related services, hospitals often                   recruitment arrangements in areas that                   indirectly to the other entity or
      direct or influence referrals for items                 are not designated as HPSAs, (b)                         individual. These joint recruitment
      and services reimbursable by Federal                    recruitment of specialists, or (c) joint                 arrangements present a high risk of
      health care programs. For example,                      recruitment with existing physician                      fraud and abuse and have been the
      hospitals may refer patients to, or order               practices in the area.                                   subject of recent government
      items or services from, home health                       Because of the significant risk of fraud               investigations and prosecutions. These
      agencies,54 skilled nursing facilities,                 and abuse posed by improper                              arrangements can easily be used as
                                                                                                                       vehicles to disguise payments from the
        53 Arrangements between hospitals and hospital-       planning process, (i) share with each beneficiary a      hospital to an existing referral source—
      based physicians were the topic of a Management         list of Medicare-certified home health agencies that
                                                              serve the beneficiary’s geographic area and that
                                                                                                                       typically an existing physician
      Advisory Report (MAR) titled ‘‘Financial
      Arrangements Between Hospitals and Hospital-            request to be listed and (ii) identify any home          practice—in exchange for the existing
      Based Physicians,’’ OEI–09–89–00330, available on       health agency in which the hospital has a                practice’s referrals to the hospital.
      our webpage at http://oig.hhs.gov/oei/reports/oei-      disclosable financial interest or that has a financial   Suspect payments to existing referral
      09–89–00330.pdf.                                        interest in the hospital.
        54 When referring to home health agencies,               55 Properly structured, payments to physicians
                                                                                                                       sources may include, among other
      hospitals must comply with section 1861(ee)(2)(D)       who become hospital employees may be protected           things, income guarantees that shift
      and (H) of the Act, requiring that Medicare             by the employee safe harbor at 42 CFR 1001.952(i).       costs from the existing referral source to
      participating hospitals, as part of the discharge          56 See 42 CFR 1001.952(n).                            the recruited physician and overhead


VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00081   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
                                      Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices                                                   32023

      and build-out costs funded for the                      ‘‘swapping’’ by accepting from a                       the payments may be used to influence
      benefit of the existing referral source.                supplier an unreasonably low price on                  referrals. The OIG has established a safe
      Hospitals should review all ‘‘joint                     Part A services that the hospital pays for             harbor for medical malpractice premium
      recruiting’’ arrangements to ensure that                out of its own pocket in exchange for                  subsidies provided to obstetrical care
      remuneration does not inure in whole or                 hospital referrals that are billable by the            practitioners in primary health care
      in part to the benefit of any party other               supplier directly to Part B (e.g.,                     shortage areas.60 Depending on the
      than the recruited physician.                           ambulance services). Suspect                           circumstances, premium support may
                                                              arrangements include below-cost                        also be structured to fit in other safe
      e. Discounts
                                                              arrangements or arrangements at prices                 harbors.
         Public policy favors open and                        lower than the prices offered by the                      We are aware of the current
      legitimate price competition in health                  supplier to other customers with similar               disruption (i.e., dramatic premium
      care. Thus, the anti-kickback statute                   volumes of business, but without                       increases, insurers’ withdrawals from
      contains an exception for discounts                     Federal health care program referrals.                 certain markets, and/or sudden
      offered to customers that submit claims                    Hospitals may also receive discounts                termination of coverage based upon
      to the Federal health care programs, if                 on items and services purchased                        factors other than the physicians’ claims
      the discounts are properly disclosed and                through group purchasing organizations                 history) in the medical malpractice
      accurately reported.57 However, to                      (GPOs). Discounts received from a                      liability insurance markets in some
      qualify for the exception, the discount                 vendor in connection with a GPO to                     States.61 Notwithstanding, hospitals
      must be in the form of a reduction in the               which a hospital belongs should be                     should review malpractice insurance
      price of the good or service based on an                properly disclosed and accurately                      subsidy arrangements closely to ensure
      arm’s-length transaction. In other words,               reported on the hospital cost reports.                 that there is no improper inducement to
      the exception covers only reductions in                 Although there is a safe harbor for                    referral sources. Relevant factors
      the product’s price. Moreover, the                      payments made by a vendor to a GPO                     include, without limitation:
      regulation provides that the discount                   as part of an agreement to furnish items
      must be given at the time of sale or, in                or services to a group of individuals or                  • Whether the subsidy is being
      certain cases, set at the time of sale,                 entities, 42 CFR 1001.952(k), the safe                 provided on an interim basis for a fixed
      even if finally determined subsequent to                harbor does not protect the discount                   period in a State or States experiencing
      the time of sale (i.e., a rebate).                      received by the individual or entity.58                severe access or affordability problems;
         In conducting business, hospitals sell                                                                         • whether the subsidy is being offered
      and purchase items and services                         f. Medical Staff Credentialing                         only to current active medical staff (or
      reimbursable by Federal health care                        Certain medical staff credentialing                 physicians new to the locality or in
      programs. Therefore, hospitals should                   practices may implicate the anti-                      practice less than a year, i.e., physicians
      thoroughly familiarize themselves with                  kickback statute. For example,                         with no or few established patients);
      the discount safe harbor at 42 CFR                      conditioning privileges on a particular                   • whether the criteria for receiving a
      1001.952(h). In particular, depending on                number of referrals or requiring the                   subsidy is unrelated to the volume or
      their role in the arrangement, hospitals                performance of a particular number of                  value of referrals or other business
      should pay attention to the discount                    procedures, beyond volumes necessary                   generated by the subsidized physician
      safe harbor requirements applicable to                  to ensure clinical proficiency,                        or his practice;
      ‘‘buyers,’’ ‘‘sellers,’’ or ‘‘offerors.’’               potentially raise substantial risks under                 • whether physicians receiving
      Compliance with the safe harbor is                      the statute. On the other hand, a                      subsidies are paying at least as much as
      determined separately for each party. In                credentialing policy that categorically                they currently pay for malpractice
      general, hospitals should ensure that all               refuses privileges to physicians with                  insurance (i.e., are windfalls to
      discounts—including rebates—are                         significant conflicts of interest would                physicians avoided);
      properly disclosed and accurately                       not appear to implicate the statute in                    • whether physicians are required to
      reflected on hospital cost reports. If a                most situations. Hospitals are advised to              perform services or relinquish rights,
      hospital offers a discount on an item or                examine their credentialing practices to               which have a value equal to the fair
      service to a buyer, it should ensure that               ensure that they do not run afoul of the               market value of the insurance
      the discount is properly disclosed on                   anti-kickback statute. The OIG has                     assistance; and
      the invoice or other documentation for                  solicited comments about, and is                          • whether the insurance is available
      the item or service.                                    considering, whether further guidance                  regardless of the location at which the
         The discount safe harbor does not                    in this area is appropriate.59                         physician provides services, including,
      protect a discount offered to one payor                 g. Malpractice Insurance Subsidies                     but not limited to, other hospitals.
      but not to the Federal health care
      programs. Accordingly, in negotiating                      The OIG historically has been                          No one of these factors is
      discounts for items and services paid                   concerned that a hospital’s subsidy of                 determinative, and this list is
      from a hospital’s pocket (such as those                 malpractice insurance premiums for                     illustrative, not exhaustive, of potential
      reimbursed under the Medicare Part A                    potential referral sources, including                  considerations in connection with the
      prospective payment system), the                        hospital medical staff, may be suspect                 provision of malpractice insurance
      hospital should ensure that there is no                 under the anti-kickback statute, because               subsidies. Parties contemplating
      link or connection, explicit or implicit,                                                                      malpractice subsidy programs that do
      between discounts offered or solicited
                                                                58 To preclude improper shifting of discounts, the   not fit into one of the safe harbors may
      for that business and the hospital’s
                                                              safe harbor excludes GPOs that wholly own their        want to consider obtaining an advisory
                                                              members or have members that are subsidiaries of       opinion. Parties should also be mindful
      referral of business billable by the seller             the parent company that wholly owns the GPO.
      directly to Medicare or another Federal                 Hospitals with affiliated GPOs should be mindful
                                                              of these limitations.                                    60 See 42 CFR 1001.952(o).
      health care program. For example, a                       59 See our ‘‘Solicitation of New Safe Harbors and      61 See OIG letter on hospital corporation’s
      hospital should not engage in                           Special Fraud Alerts,’’ 67 FR 72894 (December 9,       medical malpractice insurance assistance program,
                                                              2002), available on our webpage at http://             available on our webpage at http://oig.hhs.gov/
        57 See 42 U.S.C. 1320a–7b(b)(3)(A); 42 CFR            oig.hhs.gov/authorities/docs/                          fraud/docs/alertsandbulletins/
      1001.952(h).                                            solicitationannsafeharbor.pdf.                         MalpracticeProgram.pdf.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00082   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
      32024                            Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices

      that these subsidy arrangements also                        In addition to the CMP risks described                  Hospital emergency departments may
      implicate the Stark law.                                 above, gainsharing arrangements can                     not transfer an individual with an
                                                               also implicate the anti-kickback statute                unstable emergency medical condition
      C. Payments To Reduce or Limit
                                                               if the cost-savings payments are used to                unless the benefits of such a transfer
      Services: Gainsharing Arrangements
                                                               influence referrals. For example, the                   outweigh the risks. In such
         The civil monetary penalty set forth                  statute is potentially implicated if a                  circumstances, the hospital must
      in section 1128A(b)(1) of the Act                        gainsharing arrangement is intended to                  arrange for a transfer that will minimize
      prohibits a hospital from knowingly                      influence physicians to ‘‘cherry pick’’                 the risks to the individual and that has
      making a payment directly or indirectly                  healthy patients for the hospital offering              been prearranged with the facility to
      to a physician as an inducement to                       gainsharing payments and steer sicker                   which the individual is being
      reduce or limit items or services                        (and more costly) patients to hospitals                 transferred. Moreover, when a hospital
      furnished to Medicare or Medicaid                        that do not offer gainsharing payments.                 receives a call from another facility
      beneficiaries under the physician’s                      Similarly, the statute may be implicated                requesting that it accept an appropriate
      direct care.62 Hospitals that make (and                  if a hospital offers a cost-sharing                     transfer of a patient with an emergency,
      physicians that receive) such payments                   program with the intent to foster                       it must accept that patient for transfer if
      are liable for civil monetary penalties                  physician loyalty and attract more                      it has specialized capabilities to treat
      (CMPs) of up to $2,000 per patient                       referrals. In addition, we have serious                 the patient that the transferring hospital
      covered by the payments.63 The                           concerns about overly broad
      statutory proscription is very broad. The                                                                        does not have and it has the capacity to
                                                               arrangements under which a physician                    treat the patient.
      payment need not be tied to an actual                    continues for an extended time to reap
      diminution in care, so long as the                       the benefits of previously-achieved                        A hospital must provide appropriate
      hospital knows that the payment may                      savings or receives cost-savings                        screening and treatment services within
      influence the physician to reduce or                     payments unrelated to anything done by                  the full capabilities of its staff and
      limit services to his or her patients.                   the physician, whether work, services,                  facilities. This includes access to
      There is no requirement that the                         or other undertaking (e.g., a change in                 specialists who are on call. Thus,
      prohibited payment be tied to a specific                 the way the physician practices).                       hospital policies and procedures should
      patient or to a reduction in medically                      Wherever possible, hospitals should                  be clear on how to access the full
      necessary care. In short, any hospital                   consider structuring cost-saving                        services of the hospital and all staff
      incentive plan that encourages                           arrangements to fit in the personal                     should understand the hospital’s
      physicians through payments to reduce                    services safe harbor. However, in many                  obligations to patients under EMTALA.
      or limit clinical services directly or                   cases, protection under the personal                    In particular, on-call physicians need to
      indirectly violates the statute.                         services safe harbor is not available                   be educated as to their responsibilities
         We are aware that a number of                         because gainsharing arrangements                        to emergency patients, including the
      hospitals are engaged in, or considering                 typically involve a percentage payment                  responsibility to accept appropriately
      entering into, incentive arrangements                    (i.e., the aggregate fee will not be set in             transferred patients from other facilities.
      commonly called ‘‘gainsharing.’’ While                   advance, as required by the safe harbor).               In addition, all persons working in
      there is no fixed definition of a                        Finally, gainsharing arrangements may                   emergency departments should be
      ‘‘gainsharing’’ arrangement, the term                    also implicate the Stark law.                           periodically trained and reminded of
      typically refers to an arrangement in                                                                            the hospital’s EMTALA obligations and
      which a hospital gives physicians a                      D. Emergency Medical Treatment and
                                                               Labor Act (EMTALA)                                      hospital policies and procedures
      percentage share of any reduction in the                                                                         designed to ensure that such obligations
      hospital’s costs for patient care                           Hospitals should review their                        are met.
      attributable in part to the physicians’                  obligations under EMTALA (section
      efforts. We recognize that, properly                                                                                For further information about
                                                               1867 of the Act) to evaluate and treat
      structured, gainsharing arrangements                                                                             EMTALA, hospitals are directed to: (i)
                                                               individuals who come to their
      can serve legitimate business and                        emergency departments and other                         The anti-dumping statute at section
      medical purposes, such as increasing                     facilities. Hospitals should pay                        1867 of the Act; (ii) the anti-dumping
      efficiency, reducing waste, and, thereby,                particular attention to when an                         statute’s implementing regulations at 42
      potentially increasing a hospital’s                      individual must receive a medical                       CFR part 489; (iii) our 1999 Special
      profitability. However, the plain                        screening exam to determine whether                     Advisory Bulletin on the Patient Anti-
      language of section 1128A(b)(1) of the                   that individual is suffering from an                    Dumping Statute, 64 FR 61353
      Act prohibits tying the physicians’                      emergency medical condition. When                       (November 10, 1999), available on our
      compensation for services to reductions                  such a screening or treatment of an                     webpage at http://oig.hhs.gov/fraud/
      or limitations in items or services                      emergency medical condition is                          docs/alertsandbulletins/frdump.pdf;
      provided to patients under the                           required, it cannot be delayed to inquire               and (iv) CMS’s EMTALA resource
      physicians’ clinical care.64                             about an individual’s method of                         webpage located at http://www.cms.gov/
                                                               payment or insurance status. If the                     providers/emtala/emtala.asp.
         62 The prohibition applies only to reductions or
                                                               hospital’s emergency department (ED) is                 E. Substandard Care
      limitations of items or services provided to
      Medicare and Medicaid fee-for-service                    ‘‘on diversion’’ and an individual comes
      beneficiaries. See section 1128A(b)(1)(A) of the Act.    to the ED for evaluation or treatment of                   The OIG has authority to exclude any
      See also our August 19, 1999 letter regarding            a medical condition, the hospital is                    individual or entity from participation
      ‘‘Social Security Act sections 1128A(b)(1) and (2)       required to provide such services                       in Federal health care programs if the
      and hospital-physician incentive plans for Medicare
      or Medicaid beneficiaries enrolled in managed care       despite its diversionary status.                        individual or entity provides
      plans,’’ available on our webpage at http://                                                                     unnecessary items or services (i.e., items
      oig.hhs.gov/fraud/docs/alertsandbulletins/               titled ‘‘Gainsharing Arrangements and CMPs for          or services in excess of the needs of a
      gsletter.htm.                                            Hospital Payments to Physicians to Reduce or Limit
         63 See sections 1128A(b)(1)(B) & (b)(2) of the Act.
                                                                                                                       patient) or substandard items or services
                                                               Services to Beneficiaries,’’ available on our webpage
         64 A detailed discussion of gainsharing can be        at http://oig.hhs.gov/fraud/docs/alertsandbulletins/
                                                                                                                       (i.e., items or services of a quality which
      found in our July 1999 Special Advisory Bulletin         gainsh.htm.                                             fails to meet professionally recognized


VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00083   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
                                      Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices                                                    32025

      standards of health care).65                            offer or transfer of items or services for                 In addition, hospitals (and others)
      Significantly, neither knowledge nor                    free or other than fair market value,                   may waive cost-sharing amounts on the
      intent is required for exclusion under                  including the waiver of all or part of a                basis of a beneficiary’s financial need,
      this provision. The exclusion can be                    Medicare or Medicaid cost-sharing                       so long as the waiver is not routine, not
      based upon unnecessary or substandard                   amount.67 In other words, hospitals may                 advertised, and made pursuant to a good
      items or services provided to any                       not offer valuable items or services to                 faith, individualized assessment of the
      patient, even if that patient is not a                  Medicare or Medicaid beneficiaries to                   beneficiary’s financial need or after
      Medicare or Medicaid beneficiary.                       attract their business. In this regard,                 reasonable collection efforts have
         We are mindful that the vast majority                hospitals should familiarize themselves                 failed.71 The OIG recognizes that what
      of hospitals are fully committed to                     with the OIG’s August 2002 Special                      constitutes a good faith determination of
      providing quality care to their patients.               Advisory Bulletin on Offering Gifts and                 ‘‘financial need’’ may vary depending
      To achieve their quality-related goals,                 Other Inducements to Beneficiaries.68                   on the individual patient’s
      hospitals should continually measure                                                                            circumstances and that hospitals should
      their performance against                               1. Gifts and Gratuities                                 have flexibility to take into account
      comprehensive standards. For example,                      Hospitals should scrutinize any offers               relevant variables. These factors may
      hospitals should meet all of the                        of gifts or gratuities to beneficiaries for             include, for example:
      Medicare hospital conditions of                         compliance with the CMP provision                          • The local cost of living;
      participation (COP), including without                  prohibiting inducements to Medicare                        • a patient’s income, assets, and
      limitation, the COP pertaining to a                     and Medicaid beneficiaries. The key                     expenses;
      quality assessment and performance                      inquiry under the CMP is whether the                       • a patient’s family size; and
      program at 42 CFR 482.21 and the                        remuneration is something that the                         • the scope and extent of a patient’s
      hospital COP pertaining to the medical                  hospital knows or should know is likely                 medical bills.
      staff at 42 CFR 482.22. Hospitals that                  to influence the beneficiary’s selection                   Hospitals should use a reasonable set
      have elected to be reviewed by the Joint                of a particular provider, practitioner, or              of financial need guidelines that are
      Commission on Accreditation of                          supplier for Medicare or Medicaid                       based on objective criteria and
      Healthcare Organizations (JCAHO)                        payable services. As interpreted by the                 appropriate for the applicable locality.
      should maintain their JCAHO                             OIG, section 1128A(a)(5) does not apply                 The guidelines should be applied
      accreditation.66 In addition, hospitals                 to the provision of items or services                   uniformly in all cases. While hospitals
      should develop their own quality of care                valued at less than $10 per item and $50                have flexibility in making the
      protocols and implement mechanisms                      per patient in the aggregate on an                      determination of financial need, we do
      for evaluating compliance with those                    annual basis.69 A special exception for                 not believe it is appropriate to apply
      protocols.                                              incentives to promote the delivery of                   inflated income guidelines that result in
         Finally, in reviewing the quality of                 preventive care services is discussed                   waivers for beneficiaries who are not in
      care provided, hospitals must not limit                 below at section II.I.2.                                genuine financial need. Hospitals
      their review to the quality of their                                                                            should consider that the financial status
      nursing and other ancillary services.                   2. Cost-Sharing Waivers                                 of a patient may change over time and
      Instead, hospitals must also take an                       In general, hospitals are obligated to               should recheck a patient’s eligibility at
      active part in monitoring the quality of                collect cost-sharing amounts owed by                    reasonable intervals sufficient to ensure
      medical services provided at the                        Federal health care program                             that the patient remains in financial
      hospital by appropriately overseeing the                beneficiaries. Waiving owed amounts                     need. For example, a patient who
      credentialing and peer review of their                  may constitute prohibited remuneration                  obtains outpatient hospital services
      medical staffs.                                         to beneficiaries under section                          several times a week would not need to
      F. Relationships With Federal Health                    1128A(a)(5) of the Act or the anti-                     be rechecked every visit. Hospitals
      Care Beneficiaries                                      kickback statute. Certain waivers of Part               should take reasonable measures to
                                                              A inpatient cost-sharing amounts may                    document their determinations of
         Hospitals’ relationships with Federal                be protected by structuring them to fit                 Medicare beneficiaries’ financial need.
      health care beneficiaries may also                      in the safe harbor for waivers of                       We are aware that in some situations
      implicate the fraud and abuse laws. In                  beneficiary inpatient coinsurance and                   patients may be reluctant or unable to
      particular, hospitals should be aware                   deductible amounts at 42 CFR                            provide documentation of their
      that section 1128A(a)(5) of the Act                     1001.952(k). In particular, under the                   financial status. In those cases, hospitals
      authorizes the OIG to impose CMPs on                    safe harbor, waived amounts may not be                  may be able to use other reasonable
      hospitals (and others) that offer or                    claimed as bad debt; the waivers must                   methods for determining financial need,
      transfer remuneration to a Medicare or                  be offered uniformly across the board,                  including, for example, documented
      Medicaid beneficiary that the offeror                   without regard to the reason for                        patient interviews or questionnaires.
      knows or should know is likely to                       admission, length of stay, or DRG; and                     In sum, hospitals should review their
      influence the beneficiary to order or                   waivers may not be made as part of any                  waiver policies to ensure that the
      receive items or services from a                        agreement with a third party payer,                     policies and the manner in which they
      particular provider, practitioner, or                   unless the third party payer is a                       are implemented comply with all
      supplier for which payment may be                       Medicare SELECT plan under section                      applicable laws. For more information
      made under the Medicare or Medicaid                     1882(t)(1) of the Act.70                                about cost-sharing waivers, hospitals
      programs. The definition of                                                                                     should review our February 2, 2004
      ‘‘remuneration’’ expressly includes the                      67 See
                                                                       section 1128A(i)(6) of the Act.
                                                                   68 The
                                                                        Special Advisory Bulletin on Offering Gifts   amounts pursuant to agreements with Medicare
        65 See section 1128(b)(6)(B) of the Act, which is     and Other Inducements to Beneficiaries, 65 FR           SELECT plans. See 67 FR 60202 (September 25,
      available through the Internet at http://www4.law.      24400, 24411 (April 26, 2000), is available on our      2002), available on our webpage at http://
      cornell.edu/uscode /42/1320a-7.html.                    webpage at http://oig.hhs.gov/fraud/docs/               oig.hhs.gov/fraud/docs/safeharborregulations/
        66 JCAHO’s Comprehensive Accreditation Manual         alertsandbulletins/SABGiftsandInducements.pdf.          MedicareSELECTNPRMFederalRegister.pdf.
                                                                69 See id.                                            However, the OIG is still considering comments on
      for Hospitals is available through the Internet at
      http://www.jcrinc.com/subscribers/perspectives.           70 The OIG has proposed a rule to extend this safe    this rule, and it has not been finalized.
      asp?durki=6065 &site=10&return=2815.                    harbor to protect waivers of Part B cost-sharing          71 See section 1128A(a)(6)(A) of the Act.




VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000    Frm 00084   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
      32026                           Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices

      paper on ‘‘Hospital Discounts Offered                   owned ambulatory surgical center and is                specifies a series of administrative,
      To Patients Who Cannot Afford To Pay                    for the purpose of receiving hospital or               technical, and physical security
      Their Hospital Bills,’’ containing a                    ambulatory surgery center services (or,                procedures for hospitals that are
      section titled ‘‘Reductions or Waivers of               in the case of family members,                         covered entities and other covered
      Cost-Sharing Amounts for Medicare                       accompanying or visiting hospital or                   entities to use to assure the
      Beneficiaries Experiencing Financial                    ambulatory surgical center patients).                  confidentiality of electronic PHI.
      Hardship’’ and available on our                           • The transportation is provided only                Hospitals that are covered entities must
      webpage at http://oig.hhs.gov/fraud/                    within the hospital’s or ambulatory                    be compliant with the security rule by
      docs/alertsandbulletins/2004/                           surgical center’s primary service area.                April 20, 2005. The security rule
      FA021904hospitaldiscounts.pdf.72                          • The costs of the transportation are                requirements are flexible and scalable,
                                                              not claimed directly or indirectly by any              which allows each covered entity to
      3. Free Transportation                                  Federal health care program cost report                tailor its approach to compliance based
         The plain language of the CMP                        or claim and are not otherwise shifted                 on its own unique circumstances.
      prohibits offering free transportation to               to any Federal health care program.                    Covered entities can consider their
      Medicare or Medicaid beneficiaries to                     • The transportation does not include                organization and capabilities, as well as
      influence their selection of a particular               ambulance transportation.                              costs, in designing their security plans
      provider, practitioner, or supplier.                      Other arrangements are subject to a                  and procedures. Questions about the
      Notwithstanding, hospitals can offer                    case-by-case review under the statute to               HIPAA security rules should be
      free local transportation of low value                  ensure that no improper inducement                     submitted to CMS. Hospitals can contact
      (i.e., within the $10 per item and $50                  exists.                                                CMS by following the instructions on its
      annual limits).73 Luxury and specialized                                                                       webpage, http://www.cms.gov/hipaa/
      transportation, such as limousines or                   G. HIPAA Privacy and Security Rules
                                                                                                                     hipaa2/contact, or by calling the HIPAA
      ambulances, would exceed the low                           As of April 14, 2003, all hospitals                 toll-free number, (866) 627–7748.
      value threshold and are problematic, as                 transmitting electronic transactions to
      are arrangements tied in any manner to                  health plans were required to comply                   H. Billing Medicare or Medicaid
      the volume or value of referrals and                    with the privacy rules of the Health                   Substantially in Excess of Usual
      arrangements tied to particularly                       Insurance Portability and                              Charges
      lucrative treatments or medical                         Accountability Act (HIPAA). Generally,                    Section 1128(b)(6)(A) of the Act
      conditions. However, we have indicated                  the HIPAA privacy rule addresses the                   provides for the permissive exclusion
      that we are considering developing a                    use and disclosure of individuals’                     from Federal health care programs of
      regulatory exception for some                           health information (protected health                   any provider or supplier that submits a
      complimentary local transportation                      information or PHI) by hospitals and                   claim based on costs or charges to the
      provided to beneficiaries residing in a                 other covered entities, as well as                     Medicare or Medicaid programs that is
      hospital’s primary service area.74                      standards for individuals’ privacy rights              ‘‘substantially in excess’’ of its usual
      Accordingly, until such time as we                      to understand and control how their                    charge or cost, unless the Secretary
      promulgate a final rule on                              health information is used. The privacy                finds there is ‘‘good cause’’ for the
      complimentary local transportation                      rule, 45 CFR parts 160 and 164, and                    higher charge or cost. The exclusion
      under section 1128A(a)(5) or indicate                   other helpful information about how it                 provision does not require a provider to
      our intention not to proceed with such                  applies, including frequently asked                    charge everyone the same price; nor
      rule, we have indicated that we will not                questions, can be found on the webpage                 does it require a provider to offer
      impose administrative sanctions for                     of the Department’s Office for Civil                   Medicare or Medicaid its ‘‘best price.’’
      violations of section 1128A(a)(5) of the                Rights (OCR) at http://www.hhs.gov/ocr/                However, providers cannot routinely
      Act in connection with hospital-based                   hipaa/. Questions about the privacy rule               charge Medicare or Medicaid
      complimentary transportation programs                   should be submitted to OCR. Hospitals                  substantially more than they usually
      that meet the following conditions:                     can contact OCR by following the                       charge others. Hospitals have raised
         • The program was in existence prior                 instructions on its webpage, http://                   concerns regarding the impact of the
      to August 30, 2002, the date of                         www.hhs.gov/ocr/contact.html, or by                    exclusion authority on hospital services,
      publication of the Special Advisory                     calling the HIPAA toll-free number,                    and the OIG is considering those
      Bulletin on Offering Gifts and Other                    (866) 627–7748.                                        concerns in the context of the
      Inducements to Beneficiaries.                              To ease the burden of complying with                rulemaking process.75 The OIG’s policy
         • Transportation is offered uniformly                the new requirements, the privacy rule                 regarding application of the exclusion
      and without charge or at reduced charge                 gives hospitals and other covered                      authority to discounts offered to
      to all patients of the hospital or                      entities flexibility to create their own               uninsured and underinsured patients is
      hospital-owned ambulatory surgical                      privacy procedures. Each hospital                      discussed below.
      center (and may also be made available                  should make sure that it is compliant
      to their families).                                     with all applicable provisions of the                  I. Areas of General Interest
         • The transportation is only provided                privacy rule, including provisions                        Although in most cases the following
      to and from the hospital or a hospital-                 pertaining to required disclosures (such               areas do not pose significant fraud and
                                                              as required disclosures to the                         abuse risk, the OIG has received
         72 See also OIG’s Special Fraud Alert on Routine
                                                              Department when it is undertaking a                    numerous inquiries from hospitals and
      Waiver of Copayments or Deductibles Under               compliance investigation or review or
      Medicare Part B, issued May 1991, republished in                                                               others on these topics. Therefore, we
      the Federal Register at 59 FR 65373, 65374              enforcement action) and that its privacy               offer the following guidance to assist
      (December 19, 1994), and available on our webpage       procedures are tailored to fit its
      at http://oig.hhs.gov/fraud/docs/alertsandbulletins/    particular size and needs.                                75 See Notice of Proposed Rulemaking regarding
      121994.html.                                               The final HIPAA security rule was                   ‘‘Clarification of Terms and Application of Program
         73 Our position on local transportation of nominal
                                                              published in the Federal Register on                   Exclusion Authority for Submitting Claims
      value is more fully set forth in the preamble to the                                                           Containing Excessive Charges,’’ 68 FR 53939
      final rule enacting 42 CFR 1003.102(b)(13). See 65      February 20, 2003. It is available on                  (September 15, 2003), available on our webpage at
      FR 24400, 24411 (April 26, 2000).                       CMS’s webpage at http://www.cms.gov/                   http://oig.hhs.gov/authorities/docs/
         74 See supra note 68.                                hipaa/hipaa2. The security rule                        FRSIENPRM.pdf.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00085   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
                                       Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices                                                        32027

      hospitals in their review of these                       (i.e., unpaid deductibles or coinsurance)                 Medicaid), the hospital must include a
      arrangements.                                            as long as the hospital bills a patient                   denial of payment from the State with
                                                               and engages in reasonable, consistent                     the bad debt claim.
      1. Discounts to Uninsured Patients
                                                               collection efforts.79 However, as
         No OIG authority, including the                                                                                 2. Preventive Care Services
                                                               explained in CMS’s paper titled
      Federal anti-kickback statute, prohibits                 ‘‘Questions On Charges For The                               Hospitals, particularly non-profit
      or restricts hospitals from offering                     Uninsured,’’ a hospital can forgo any                     hospitals, frequently participate in
      discounts to uninsured patients who are                  collection effort aimed at a Medicare                     community-based efforts to deliver
      unable to pay their hospital bills.76 In                 patient, if the hospital, using its                       preventive care services. The Medicare
      addition, the OIG has never excluded or                  customary methods, can document that                      and Medicaid programs encourage
      attempted to exclude any provider or                     the patient is indigent or medically                      patients to access preventive care
      supplier for offering discounts to                       indigent.80 In addition, if the hospital                  services. The prohibition against
      uninsured or underinsured patients                       also determines that no source other                      beneficiary inducements at section
      under the permissive exclusion                           than the patient is legally responsible                   1128A(a)(5) of the Act does not apply to
      authority at section 1128(b)(6)(A) of the                for the unpaid deductibles and                            incentives offered to promote the
      Act. However, to provide additional                      coinsurance, the hospital may claim the                   delivery of certain preventive care
      assurance to the industry, the OIG                       amounts as Medicare bad debts.                            services, if the programs are structured
      recently proposed regulations that                          CMS rules provide that a hospital can                  in accordance with the regulatory
      would define key terms in the statute.77                 determine its own individual indigency                    requirements at 42 CFR 1003.101.
      Among other things, the proposed                         criteria as long as it applies the criteria               Generally, to fit within the preventive
      regulations would make clear that free                   to Medicare and non-Medicare patients                     care exception, a service must be a
      or substantially reduced charges to                      uniformly. For Medicare patients,                         prenatal service or post-natal well-baby
      uninsured persons would not affect the                   however, if a hospital wants to claim                     visit or a specific clinical service
      calculation of a provider’s or supplier’s                Medicare bad debt reimbursement, CMS                      described in the current U.S. Preventive
      ‘‘usual’’ charges, as the term ‘‘usual                   requires documentation to support the                     Services Task Force’s Guide to Clinical
      charges’’ is used in the exclusion                       indigency determination. To claim                         Preventive Services 82 that is reimbursed
      provision. The OIG is currently                          Medicare bad debt reimbursement, the                      by Medicare or Medicaid. Obtaining the
      reviewing the public comments to the                     hospital must follow the guidance stated                  service may not be tied directly or
      proposed regulations. Until such time as                 in the Provider Reimbursement                             indirectly to the provision of other
      a final regulation is promulgated or the                 Manual.81 A hospital should examine a                     Medicare or Medicaid services. In
      OIG indicates its intention not to                       patient’s total resources, which could                    addition, the incentives may not be in
      promulgate a final rule, it will continue                include, but are not limited to, an                       the form of cash or cash equivalents and
      to be the OIG’s enforcement policy that                  analysis of assets, liabilities, income,                  may not be disproportionate to the value
      when calculating their ‘‘usual charges’’                 expenses, and any extenuating                             of the preventive care provided. From
      for purposes of section 1128(b)(6)(A),                   circumstances that would affect the                       an anti-kickback perspective, the chief
      individuals and entities do not need to                  determination. The hospital should                        concern is whether an arrangement to
      consider free or substantially reduced                   document the method by which it                           induce patients to obtain preventive
      charges to (i) uninsured patients or (ii)                determined the indigency and include                      care services is intended to induce other
      underinsured patients who are self-                      all backup information to substantiate                    business payable by a Federal health
      paying patients for the items or services                the determination. In addition, if                        care program. Relevant factors in
      furnished. In offering such discounts, a                 collection efforts are made, Medicare                     making this evaluation would include,
      hospital should reflect full uniform                     requires the efforts to be documented in                  but not be limited to: the nature and
      charges, rather than the discounted                      the patient’s file with copies of the                     scope of the preventive care services;
      amounts, on its Medicare cost report                     bill(s), follow-up letters, and reports of                whether the preventive care services are
      and make the FI aware that it has                        telephone and personal contacts. In the                   tied directly or indirectly to the
      reported its full charges.78                             case of a dually-eligible patient (i.e., a                provision of other items or services and,
         Under CMS rules, Medicare generally                   patient entitled to both Medicare and                     if so, the nature and scope of the other
      reimburses a hospital for a percentage of                                                                          services; the basis on which patients are
      the ‘‘bad debt’’ of a Medicare beneficiary                  79 See 42 CFR 413.80 and Medicare’s Provider
                                                                                                                         selected to receive the free or
                                                               Reimbursement Manual, Part II, chapter 11, section
                                                               1102.3.L, available on CMS’s webpage at http://           discounted services; and whether the
         76 Discounts offered to underinsured patients
                                                               www.cms.gov/manuals/pub152/PUB_15_2.asp.                  patient is able to afford the services.
      potentially raise a more significant concern under          80 See ‘‘Questions On Charges For The
      the anti-kickback statute, and hospitals should
                                                               Uninsured,’’ dated February 17, 2004 and available        3. Professional Courtesy
      exercise care to ensure that such discounts are not
                                                               on CMS’s webpage at http://www.cms.gov/                      Although historically ‘‘professional
      tied directly or indirectly to the furnishing of items
                                                               FAQ_Uninsured.pdf. In the paper, CMS further
      or services payable by a Federal health care
                                                               explains that hospitals may, but are not required to,     courtesy’’ referred to the practice of
      program. For more information, see our February 2,       determine a patient’s indigency using a sliding           physicians waiving the entire
      2004 paper on ‘‘Hospital Discounts Offered To
      Patients Who Cannot Afford To Pay Their Hospital
                                                               scale. In this type of arrangement, the provider          professional fee for other physicians, the
                                                               would agree to deem the patient indigent with
      Bills,’’ available on our webpage at http://             respect to a portion of the patient’s account (e.g.,
                                                                                                                         term is variously used in the industry
      oig.hhs.gov/fraud/docs/alertsandbulletins/2004/          a flat percentage of the debt based on the patient’s      now to describe a range of practices
      FA021904hospitaldiscounts.pdf, and CMS’s paper           income, assets, or the size of the patient’s liability    involving free or discounted services
      titled ‘‘Questions On Charges For The Uninsured,’’       relative to their income). In the case of a Medicare
      dated February 17, 2004, and available on CMS’s                                                                    (including ‘‘insurance only’’ billing)
                                                               patient who is determined to be indigent using this
      webpage at http://www.cms.gov/                           method, the amount the hospital decides, pursuant         furnished to physicians and their
      FAQ_Uninsured.pdf.                                       to its policy, not to collect from the patient can be     families and staff. Some hospitals have
         77 See 68 FR 53939 (September 15, 2003),
                                                               claimed by the provider as Medicare bad debt. The         used the term ‘‘professional courtesy’’ to
      available on our webpage at http://oig.hhs.gov/          hospital must, however, engage in a reasonable
      authorities/docs/FRSIENPRM.pdf.
                                                                                                                         describe various programs that offer free
                                                               collection effort to collect the remaining balance. Id.
         78 For more information, see CMS’s paper titled          81 See Medicare’s Provider Reimbursement               or discounted hospital services to
      ‘‘Questions On Charges For The Uninsured,’’ dated        Manual, Part II, chapter 11, section 1102.3.L,
      February 17, 2004, and available on CMS’s webpage        available on CMS’s webpage at http://www.cms.gov/          82 Available on the Internet at http://

      at http://www.cms.gov/FAQ_Uninsured.pdf.                 manuals/pub152/PUB_15_2.asp.                              www.ahrq.gov/clinic/cps3dix.htm.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00086   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM      08JNN1
      32028                           Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices

      medical staff, employees, community                     This section discusses the important                     As appropriate, the OIG strongly
      physicians, and their families and staff.               roles of corporate leadership and self-                encourages the participation and
      Although many professional courtesy                     assessment of compliance programs.                     involvement of the hospital’s board of
      programs are unlikely to pose a                                                                                directors, officers (including the chief
                                                              A. Code of Conduct
      significant risk of abuse (and many may                                                                        executive officer (CEO)), members of
      be legitimate employee benefits                            Every effective compliance program                  senior management, and other
      programs eligible for the employee safe                 necessarily begins with a formal                       personnel from various levels of the
      harbor), some hospital-sponsored                        commitment to compliance by the                        organizational structure in the
      ‘‘professional courtesy’’ programs may                  hospital’s governing body and senior                   development of all aspects of the
      implicate the fraud and abuse statutes.                 management. Evidence of that                           compliance program, especially the
         In general, whether a professional                   commitment should include active                       code of conduct. Management and
      courtesy program runs afoul of the anti-                involvement of the organizational                      employee involvement in this process
      kickback statute turns on whether the                   leadership, allocation of adequate                     communicates a strong and explicit
      recipients of the professional courtesy                 resources, a reasonable timetable for                  commitment by management to foster
      are selected in a manner that takes into                implementation of the compliance                       compliance with applicable Federal
      account, directly or indirectly, any                    measures, and the identification of a                  health care program requirements. It
      recipient’s ability to refer to, or                     compliance officer and compliance                      also communicates the need for all
      otherwise generate business for, the                    committee vested with sufficient                       managers, employees, contractors, and
      hospital. Also relevant is whether the                  autonomy, authority, and accountability                medical staff members to comply with
      physicians have solicited the                           to implement and enforce appropriate                   the organization’s code of conduct and
      professional courtesy in return for                     compliance measures. A hospital’s                      policies and procedures.
      referrals. With respect to the Stark law,               leadership should foster an                            B. Regular Review of Compliance
      the key inquiry is whether the                          organizational culture that values, and                Program Effectiveness
      arrangement fits in the exception for                   even rewards, the prevention, detection,
      professional courtesy at 42 CFR                         and resolution of problems. Moreover,                     Hospitals should regularly review the
      411.357(s). Finally, hospitals should                   hospitals’ leadership and management                   implementation and execution of their
      evaluate the method by which the                        should ensure that policies and                        compliance program elements. This
      courtesy is granted. For example,                       procedures, including, for example,                    review should be conducted at least
      ‘‘insurance only’’ billing offered to a                 compensation structures, do not create                 annually and should include an
      Federal program beneficiary potentially                 undue pressure to pursue profit over                   assessment of each of the basic elements
      implicates the anti-kickback statute, the               compliance. In short, the hospital                     individually, as well as the overall
      False Claims Act, and the CMP                           should endeavor to develop a culture                   success of the program. This review
      provision prohibiting inducements to                    that values compliance from the top                    should help the hospital identify any
      Medicare and Medicaid beneficiaries                     down and fosters compliance from the                   weaknesses in its compliance program
      (discussed in section II.F above).                      bottom up. Such an organizational                      and implement appropriate changes.
                                                                                                                        A common method of assessing
      Notably, the Stark law exception for                    culture is the foundation of an effective
                                                                                                                     compliance program effectiveness is
      professional courtesy requires that                     compliance program.
                                                                                                                     measurement of various outcomes
      insurers be notified if ‘‘professional                     Although a clear statement of detailed
                                                                                                                     indicators (e.g., billing and coding error
      courtesy’’ includes ‘‘insurance only’’                  and substantive policies and
                                                                                                                     rates, identified overpayments, and
      billing.                                                procedures—and the periodic
                                                                                                                     audit results). However, we have
                                                              evaluation of their effectiveness—is at
      III. Hospital Compliance Program                                                                               observed that exclusive reliance on
                                                              the core of a compliance program, the
      Effectiveness                                                                                                  these indicators may cause an
                                                              OIG recommends that hospitals also
         Hospitals with an organizational                                                                            organization to miss crucial underlying
                                                              develop a general organizational
      culture that values compliance are more                                                                        weaknesses. We recommend that
                                                              statement of ethical and compliance
      likely to have effective compliance                                                                            hospitals examine program outcomes
                                                              principles that will guide the entity’s
      programs and thus be better able to                                                                            and assess the underlying structure and
                                                              operations. One common expression of
      prevent, detect, and correct problems.                                                                         process of each compliance program
                                                              this statement of principles is a code of
      Building and sustaining a successful                                                                           element. We have identified a number
                                                              conduct. The code should function in
      compliance program rarely follows the                                                                          of factors that may be useful when
                                                              the same fashion as a constitution, i.e.,
      same formula from organization to                                                                              evaluating the effectiveness of basic
                                                              as a document that details the
      organization. However, such programs                                                                           compliance program elements.
                                                              fundamental principles, values, and
      generally include: The commitment of                                                                           Hospitals should consider these factors,
                                                              framework for action within an
      the hospital’s governance and                                                                                  as well as others, when developing a
                                                              organization. The code of conduct for a
      management at the highest levels;                                                                              strategy for assessing their compliance
                                                              hospital should articulate a commitment
      structures and processes that create                                                                           programs. While no one factor is
                                                              to compliance by management,
      effective internal controls; and regular                                                                       determinative of program effectiveness,
                                                              employees, and contractors, and should
      self-assessment and enhancement of the                                                                         the following factors are often observed
                                                              summarize the broad ethical and legal
      existing compliance program. The 1998                                                                          in effective compliance programs.
                                                              principles under which the hospital
      CPG provided guidance for hospitals on                  must operate. Unlike the more detailed                 1. Designation of a Compliance Officer
      establishing sound internal controls.83                 policies and procedures, the code of                   and Compliance Committee
                                                              conduct should be brief, easily readable,                 The compliance department is the
        83 Among other things, the 1998 hospital CPG
                                                              and cover general principles applicable                backbone of the hospital’s compliance
      includes a detailed discussion of the structure and
      processes that make up the recommended seven            to all members of the organization.                    program. The compliance department
      elements of a compliance program. The seven basic                                                              should be led by a well-qualified
      elements of a compliance program are: designation       development of open lines of communication;
      of a compliance officer and compliance committee;       appropriate training and education; response to
                                                                                                                     compliance officer, who is a member of
      development of compliance policies and                  detected offenses; internal monitoring and auditing;   senior management, and should be
      procedures, including standards of conduct;             and enforcement of disciplinary standards.             supported by a compliance committee.


VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00087   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
                                      Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices                                             32029

      The purpose of the compliance                             • Are policies and procedures clearly                4. Appropriate Training and Education
      department is to implement the                          written, relevant to day-to-day                           Hospitals that fail to train and educate
      hospital’s compliance program and to                    responsibilities, readily available to                 their staff adequately risk liability for
      ensure that the hospital complies with                  those who need them, and re-evaluated                  the violation of health care fraud and
      all applicable Federal health care                      on a regular basis?                                    abuse laws. The purpose of conducting
      program requirements. To ensure that                      • Does the hospital monitor staff                    a training and education program is to
      the compliance department is meeting                    compliance with internal policies and                  ensure that each employee, contractor,
      this objective, each hospital should                    procedures?                                            or any other individual that functions
      conduct an annual review of its                           • Have the standards of conduct been                 on behalf of the hospital is fully capable
      compliance department. Some factors                     distributed to the Board of Directors, all             of executing his or her role in
      that the organization may wish to                       officers, all managers, employees,                     compliance with rules, regulations, and
      consider in its evaluation include the                  contractors, and medical staff?                        other standards. In reviewing their
      following:                                                • Has the hospital developed a risk                  training and education programs,
         • Does the compliance department                     assessment tool, which is re-evaluated                 hospitals may consider the following
      have a clear, well-crafted mission?                     on a regular basis, to assess and identify             factors:
         • Is the compliance department                       weaknesses and risks in operations?                       • Does the hospital provide qualified
      properly organized?                                       • Does the risk assessment tool                      trainers to conduct annual compliance
         • Does the compliance department                     include an evaluation of Federal health                training to its staff, including both
      have sufficient resources (staff and                    care program requirements, as well as                  general and specific training pertinent
      budget), training, authority, and                       other publications, such as OIG CPGs,                  to the staff s responsibilities?
      autonomy to carry out its mission?                      Work Plans, Special Advisory Bulletins,                   • Has the hospital evaluated the
         • Is the relationship between the                    and Special Fraud Alerts?                              content of its training and education
      compliance function and the general                     3. Developing Open Lines of                            program on an annual basis and
      counsel function appropriate to achieve                 Communication                                          determined that the subject content is
      the purpose of each?                                                                                           appropriate and sufficient to cover the
         • Is there an active compliance                         Open communication is essential to                  range of issues confronting its
      committee, comprised of trained                         maintaining an effective compliance                    employees?
      representatives of each of the relevant                 program. The purpose of developing                        • Has the hospital kept up-to-date
      functional departments, as well as                      open communication is to increase the                  with any changes in Federal health care
      senior management?                                      hospital’s ability to identify and                     program requirements and adapted its
         • Are ad hoc groups or task forces                   respond to compliance problems.                        education and training program
      assigned to carry out any special                       Generally, open communication is a                     accordingly?
      missions, such as conducting an                         product of organizational culture and                     • Has the hospital formulated the
      investigation or evaluating a proposed                  internal mechanisms for reporting                      content of its education and training
      enhancement to the compliance                           instances of potential fraud and abuse.                program to consider results from its
      program?                                                When assessing a hospital’s ability to                 audits and investigations; results from
         • Does the compliance officer have                   communicate potential compliance                       previous training and education
      direct access to the governing body, the                issues effectively, a hospital may wish                programs; trends in hotline reports; and
      president or CEO, all senior                            to consider the following factors:                     OIG, CMS, or other agency guidance or
      management, and legal counsel?                             • Has the hospital fostered an                      advisories?
         • Does the compliance officer have a                 organizational culture that encourages                    • Has the hospital evaluated the
      good working relationship with other                    open communication, without fear of                    appropriateness of its training format by
      key operational areas, such as internal                 retaliation?                                           reviewing the length of the training
      audit, coding, billing, and clinical                       • Has the hospital established an                   sessions; whether training is delivered
      departments?                                            anonymous hotline or other similar                     via live instructors or via computer-
         • Does the compliance officer make                   mechanism so that staff, contractors,                  based training programs; the frequency
      regular reports to the board of directors               patients, visitors, and medical staff can              of training sessions; and the need for
      and other hospital management                           report potential compliance issues?                    general and specific training sessions?
      concerning different aspects of the                        • How well is the hotline publicized;                  • Does the hospital seek feedback
      hospital’s compliance program?                          how many and what types of calls are                   after each session to identify
                                                              received; are calls logged and tracked (to             shortcomings in the training program,
      2. Development of Compliance Policies                   establish possible patterns); and does                 and does it administer post-training
      and Procedures, Including Standards of                  the caller have some way to be informed                testing to ensure attendees understand
      Conduct                                                 of the hospital’s actions?                             and retain the subject matter delivered?
         The purpose of compliance policies                      • Are all instances of potential fraud                 • Has the hospital s governing body
      and procedures is to establish bright-                  and abuse investigated?                                been provided with appropriate training
      line rules that help employees carry out                   • Are the results of internal                       on fraud and abuse laws?
      their job functions in a manner that                    investigations shared with the hospital                   • Has the hospital documented who
      ensures compliance with Federal health                  governing body and relevant                            has completed the required training?
      care program requirements and furthers                  departments on a regular basis?                           • Has the hospital assessed whether
      the mission and objective of the hospital                  • Is the governing body actively                    to impose sanctions for failing to attend
      itself. Typically, policies and                         engaged in pursuing appropriate                        training or to offer appropriate
      procedures are written to address                       remedies to institutional or recurring                 incentives for attending training?
      identified risk areas for the organization.             problems?
      As hospitals conduct a review of their                     • Does the hospital utilize alternative             5. Internal Monitoring and Auditing
      written policies and procedures, some                   communication methods, such as a                         Effective auditing and monitoring
      of the following factors may be                         periodic newsletter or compliance                      plans will help hospitals avoid the
      considered:                                             intranet web site?                                     submission of incorrect claims to


VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00088   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
      32030                           Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices

      Federal health care program payors.                       • When a detected deficiency results                 period, but not more than 60 days,87
      Hospitals should develop detailed                       in an identified overpayment to the                    after determining that there is credible
      annual audit plans designed to                          hospital, are overpayments promptly                    evidence of a violation.88 Prompt
      minimize the risks associated with                      reported and repaid to the FI?                         voluntary reporting will demonstrate
      improper claims and billing practices.                    • If a matter results in a probable                  the hospital’s good faith and willingness
      Some factors hospitals may wish to                      violation of law, does the hospital                    to work with governmental authorities
      consider include the following:                         promptly disclose the matter to the                    to correct and remedy the problem. In
         • Is the audit plan re-evaluated                     appropriate law enforcement agency.84                  addition, reporting such conduct will be
      annually, and does it address the proper                                                                       considered a mitigating factor by the
                                                              7. Enforcement of Disciplinary
      areas of concern, considering, for                                                                             OIG in determining administrative
                                                              Standards
      example, findings from previous years’                                                                         sanctions (e.g., penalties, assessments,
      audits, risk areas identified as part of                   By enforcing disciplinary standards,                and exclusion), if the reporting hospital
      the annual risk assessment, and high                    hospitals help create an organizational                becomes the subject of an OIG
      volume services?                                        culture that emphasizes ethical                        investigation.89 To encourage providers
         • Does the audit plan include an                     behavior. Hospitals may consider the                   to make voluntary disclosures, the OIG
      assessment of billing systems, in                       following factors when assessing the                   published the Provider Self-Disclosure
      addition to claims accuracy, in an effort               effectiveness of internal disciplinary                 Protocol.90
      to identify the root cause of billing                   efforts:
                                                                                                                        When reporting to the government, a
      errors?                                                    • Are disciplinary standards well-
                                                                                                                     hospital should provide all information
         • Is the role of the auditors clearly                publicized and readily available to all
                                                                                                                     relevant to the alleged violation of
      established and are coding and audit                    hospital personnel?
                                                                 • Are disciplinary standards enforced               applicable Federal or State law(s) and
      personnel independent and qualified,                                                                           the potential financial or other impact of
      with the requisite certifications?                      consistently across the organization?
                                                                 • Is each instance involving the                    the alleged violation. The compliance
         • Is the audit department available to                                                                      officer, under advice of counsel and
                                                              enforcement of disciplinary standards
      conduct unscheduled reviews and does                                                                           with guidance from the governmental
                                                              thoroughly documented?
      a mechanism exist that allows the                                                                              authorities, could be requested to
                                                                 • Are employees, contractors and
      compliance department to request                                                                               continue to investigate the reported
                                                              medical staff checked routinely (e.g., at
      additional audits or monitoring should                                                                         violation. Once the investigation is
                                                              least annually) against government
      the need arise?                                                                                                completed, and especially if the
                                                              sanctions lists, including the OIG’s List
         • Has the hospital evaluated the error                                                                      investigation ultimately reveals that
                                                              of Excluded Individuals/Entities
      rates identified in the annual audits?                                                                         criminal, civil or administrative
                                                              (LEIE)85 and the General Services
         • If the error rates are not decreasing,                                                                    violations have occurred, the
                                                              Administration’s Excluded Parties
      has the hospital conducted a further                                                                           compliance officer should notify the
                                                              Listing System.
      investigation into other aspects of the                                                                        appropriate governmental authority of
                                                                 In sum, while no single factor is
      hospital compliance program in an                                                                              the outcome of the investigation,
                                                              conclusive of an effective compliance
      effort to determine hidden weaknesses                                                                          including a description of the impact of
                                                              program, the preceding seven areas form
      and deficiencies?                                                                                              the alleged violation on the applicable
                                                              a useful starting point for developing
         • Does the audit include a review of                                                                        Federal health care programs or their
                                                              and maintaining an effective
      all billing documentation, including                                                                           beneficiaries.
                                                              compliance program.
      clinical documentation, in support of
      the claim?                                              IV. Self-Reporting                                     Affairs, the Health Resources and Services
                                                                Where the compliance officer,                        Administration, and the Office of Personnel
      6. Response to Detected Deficiencies                                                                           Management (which administers the Federal
                                                              compliance committee, or a member of                   Employee Health Benefits Program).
        By consistently responding to
                                                              senior management discovers credible                      87 In contrast, to qualify for the ‘‘not less than
      detected deficiencies, hospitals can
                                                              evidence of misconduct from any source                 double damages’’ provision of the False Claims Act,
      develop effective corrective action plans                                                                      the provider must provide the report to the
                                                              and, after a reasonable inquiry, believes
      and prevent further losses to Federal                                                                          government within 30 days after the date when the
                                                              that the misconduct may violate
      health care programs. Some factors a                                                                           provider first obtained the information. See 31
                                                              criminal, civil, or administrative law,                U.S.C. 3729(a).
      hospital may wish to consider when
                                                              the hospital should promptly report the                   88 Some violations may be so serious that they
      evaluating the manner in which it
                                                              existence of misconduct to the                         warrant immediate notification to governmental
      responds to detected deficiencies                                                                              authorities prior to, or simultaneous with,
                                                              appropriate Federal and State
      include the following:                                                                                         commencing an internal investigation. By way of
                                                              authorities 86 within a reasonable                     example, the OIG believes a provider should
        • Has the hospital created a response                                                                        immediately report misconduct that: (1) Is a clear
      team, consisting of representatives from                  84 For more information on when to self-report,      violation of administrative, civil, or criminal laws;
      the compliance, audit, and any other                    see section IV, below.                                 (2) has a significant adverse effect on the quality of
      relevant functional areas, which may be                   85 See http://oig.hhs.gov/fraud/exclusions.html.     care provided to Federal health care program
                                                              The OIG also makes available Monthly                   beneficiaries; or (3) indicates evidence of a systemic
      able to evaluate any detected                                                                                  failure to comply with applicable laws or an
                                                              Supplements for Standard LEIE, which can be
      deficiencies quickly?                                   compared to existing hospital personnel lists.         existing corporate integrity agreement, regardless of
        • Are all matters thoroughly and                        86 Appropriate Federal and State authorities         the financial impact on Federal health care
      promptly investigated?                                  include the OIG, CMS, the Criminal and Civil           programs.
        • Are corrective action plans
                                                                                                                        89 The OIG has published criteria setting forth
                                                              Divisions of the Department of Justice, the U.S.
                                                              Attorney in relevant districts, the Food and Drug      those factors that the OIG takes into consideration
      developed that take into account the                    Administration, the Department’s Office for Civil      in determining whether it is appropriate to exclude
      root causes of each potential violation?                Rights, the Federal Trade Commission, the Drug         an individual or entity from program participation
        • Are periodic reviews of problem                     Enforcement Administration, the Federal Bureau of      pursuant to 42 U.S.C. 1320a-7(b)(7) for violations of
      areas conducted to verify that the                      Investigation, and the other investigative arms for    various fraud and abuse laws. See 62 FR 67392
                                                              the agencies administering the affected Federal or     (December 24, 1997).
      corrective action that was implemented                  State health care programs, such as the State             90 See 63 FR 58399 (October 30, 1998), available
      successfully eliminated existing                        Medicaid Fraud Control Unit, the Defense Criminal      on our webpage at http://oig.hhs.gov/authorities/
      deficiencies?                                           Investigative Service, the Department of Veterans      docs/selfdisclosure.pdf.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00089   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
                                      Federal Register / Vol. 69, No. 110 / Tuesday, June 8, 2004 / Notices                                              32031

      V. Conclusion                                           suctioning) of contaminated respiratory                DEPARTMENT OF HEALTH AND
         In today’s environment of increased                  tract secretion, whether bacteria had                  HUMAN SERVICES
      scrutiny of corporate conduct and                       been introduced into the trachea during
      increasingly large expenditures for                     intubation or via leakage around the                   National Institutes of Health
      health care, it is imperative for hospitals             inflated ETT cuff. The ETT and trachea
                                                              are kept horizontal through a tilting bed              National Institute of Mental Health;
      to establish and maintain effective                                                                            Notice of Closed Meetings
      compliance programs. These programs                     that allows lateral body rotation.
      should foster a culture of compliance                      NHLBI’s studies indicate that
                                                              maintaining a patient’s trachea and                       Pursuant to section 10(d) of the
      that begins at the highest levels and                                                                          Federal Advisory Committee Act, as
      extends throughout the organization.                    tracheal tube in the horizontal plane
                                                              could be expected to: (1) Obviate the                  amended (5 U.S.C. Appendix 2), notice
      This supplemental CPG is intended as a                                                                         is hereby given of the following
      resource for hospitals to help them                     need for tracheal tube suctioning; (2)
                                                              prevent tracheal/bronchial and                         meetings.
      operate effective compliance programs
      that decrease errors, fraud, and abuse                  pulmonary colonization with                               The meetings will be closed to the
      and increase compliance with Federal                    oropharyngeal/gastric flora; and (3) in a              public in accordance with the
      health care program requirements for                    patient with pre-existing pneumonia,                   provisions set forth in sections
      the benefit of the hospitals and public                 reduce incidence of antibiotic-resistant               552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
      alike.                                                  bacterial infection, as the gastric/                   as amended. The grant applications and
                                                              oropharyngeal source of such bacteria is               the discussions could disclose
        Dated: May 20, 2004.
                                                              eliminated.                                            confidential trade secrets or commercial
      Lewis Morris,                                              This CRADA project is with the                      property such as patentable material,
      Chief Counsel to the Inspector General.                 Pulmonary and Cardiac Assist Devices                   and personal information concerning
      [FR Doc. 04–12829 Filed 6–7–04; 8:45 am]                Section within P-CCMB in NHLBI. The                    individuals associated with the grant
      BILLING CODE 4150–01–P                                  NHLBI is seeking capability statements                 applications, the disclosure of which
                                                              from parties interested in entering into               would constitute a clearly unwarranted
                                                              a CRADA to further develop, evaluate,                  invasion of personal privacy.
      DEPARTMENT OF HEALTH AND                                and commercialize a tilting bed that
      HUMAN SERVICES                                                                                                   Name of Committee: National Institute of
                                                              allows lateral body rotation. The goals                Mental Health Special Emphasis Panel
                                                              are to use the respective strengths of                 Review of R34 Applications.
      National Institutes of Health
                                                              both parties to achieve the following:                   Date: June 22, 2004.
      National Heart, Lung, and Blood                            (1) Assistance in conducting clinical                 Time: 10 a.m. to 11 a.m.
      Institute (NHLBI); Opportunity for a                    trials to determine the performance of                   Agenda: To review and evaluate grant
      Cooperative Research and                                the tilting bed in the prevention of                   applications.
                                                              ventilator-associated pneumonia and                      Place: National Institutes of Health,
      Development Agreement (CRADA) for                                                                              Neuroscience Center, 6001 Executive
      the Development of a Tilting Bed That                   improvement of care of patients
                                                              intubated and mechanically ventilated;                 Boulevard, Rockville, MD 20852, (Telephone
      Allows Horizontal Positioning and                                                                              Conference Call)
      Lateral Rotation                                        and (2) manufacture of the tilting bed.                  Contact Person: Martha Ann Carey, PhD,
                                                                 The collaborator may also be expected               RN, Scientific Review Administrator,
      AGENCY: National Institutes of Health,                  to contribute financial support under                  Division of Extramural Activities, National
      Public Health Services, DHHS                            this CRADA for personnel, supplies,                    Institute of Mental Health, NIH,
      ACTION: Notice.                                         travel, and equipment to support these                 Neuroscience Center, 6001 Executive Blvd.,
                                                              projects.                                              Room 6151, MSC 9608, Bethesda, MD 20892–
      SUMMARY: The Pulmonary-Critical Care                       Reference paper: Bacterial                          9608, 301–443–1606, mcarey@mail.nih.gov.
      Medicine Branch (P-CCMB) in National                    colonization of the respiratory tract                    This notice is being published less than 15
      Heart, Lung, and Blood Institute                        following tracheal intubation—Effect of                days prior to the meeting due to the timing
      (NHLBI) conducts research on lung                       gravity: An experimental study. M.                     limitations imposed by the review and
      disease that includes development of                    Panigada, MD; L. Berra, MD; G. Greco,                  funding cycle.
      new technologies for the prevention of                  MD; M. Stylianou, PhD; T. Kolobow,                       Name of Committee: National Institute of
      nosocomial pneumonia and ventilator-                    MD: Crit Care Med 2003; 31:729–737.                    Mental Health Special Emphasis Panel
      induced injury.                                                                                                Mental Health Interventions for Children,
                                                                 CRADA capability statements should
         Ventilator-associated pneumonia is                                                                          Families and Eating Disorders.
                                                              be submitted to Marianne Lynch, JD,                      Date: July 8, 2004.
      the leading cause of death from                         Technology Transfer Specialist,                          Time: 9 a.m. to 5 p.m.
      nosocomial infection during mechanical                  National Heart, Lung, and Blood                          Agenda: To review and evaluate grant
      ventilation with an endotracheal tube                   Institute (NHLBI), Office of Technology                applications.
      (ETT). The ETT is believed to facilitate                Transfer and Development, National                       Place: St. Gregory Hotel, 2033 M Street,
      bacterial colonization of the lower                     Institutes of Health, 6705 Rockledge                   NW., Washington, DC 20036.
      respiratory tract.                                      Drive, Suite 6018, MSC 7992, Bethesda,                   Contact Person: Marina Broitman, PhD,
         NHLBI has been investigating the role                MD 20892–7992; Phone: (301) 594–                       Scientific Review Administrator, Division of
      of horizontal orientation of the                                                                               Extramural Activities, National Institute of
                                                              4094; Fax: (301) 594–3080; E-mail:
      endotracheal tube and neck on bacterial                                                                        Mental Health, NIH, Neuroscience Center,
                                                              Lynchm@nhlbi.nih.gov. Capability                       6001 Executive Blvd., Room 6153, MSC 9608,
      colonization of the respiratory tract.                  statements must be received on or
      Current clinical practice is to position                                                                       Bethesda, MD 20892–9608, 301–402–8152,
                                                              before 60 days after Federal Register                  mbroitma@mail.nih.gov.
      the patient semirecumbent by elevating                  Notice is published.
      the head of the bed, to reduce gastric                                                                           Name of Committee: National Institute of
                                                                Dated: May 26, 2004.                                 Mental Health Special Emphasis Panel
      regurgitation. NHLBI tested whether                                                                            Attentional Research Centers.
      horizontal positioning of the ETT and of                Carl Roth,
                                                                                                                       Date: July 12, 2004.
      the trachea combined with intermittent                  Director, Office of Science and Technology.
                                                                                                                       Time: 10 a.m. to 3 p.m.
      lateral body rotation could facilitate                  [FR Doc. 04–12859 Filed 6–7–04; 8:45 am]                 Agenda: To review and evaluate grant
      spontaneous removal (without tracheal                   BILLING CODE 4140–01–M                                 applications.



VerDate jul<14>2003   14:21 Jun 07, 2004   Jkt 203001   PO 00000   Frm 00090   Fmt 4703   Sfmt 4703   E:\FR\FM\08JNN1.SGM   08JNN1
